<html>
<title> - LEBANON AT THE CROSSROADS</title>
<body><pre>[Senate Hearing 113-457]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 113-457

                       LEBANON AT THE CROSSROADS

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON NEAR EASTERN AND 
                    SOUTH AND CENTRAL ASIAN AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            FEBRUARY 25, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations



[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

      Available via the World Wide Web: http://www.gpo.gov/fdsys/



                        U.S. GOVERNMENT PRINTING OFFICE 

91-137 PDF                     WASHINGTON : 2014 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001



















                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

                SUBCOMMITTEE ON NEAR EASTERN AND        
                SOUTH AND CENTRAL ASIAN AFFAIRS        

                 TIM KAINE, Virginia, Chairman        

BARBARA BOXER, California            JAMES E. RISCH, Idaho
BENJAMIN L. CARDIN, Maryland         MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JOHN McCAIN, Arizona

                              (ii)        

  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  
  


                            C O N T E N T S

                              ----------                              
                                                                   Page

Kaine, Hon. Tim, U.S. Senator from Virginia, opening statement...     1
Nerguizian, Aram, senior fellow, Burke Chair in Strategy, Center 
  for Strategic and International Studies, Washington, DC........    29
    Prepared statement (See editor's note).......................    31
Plehn, Maj. Gen. Michael T., Principal Director for Middle East 
  Policy, Office of the Secretary of Defense, U.S. Department of 
  Defense, Washington, DC........................................    11
    Prepared statement...........................................    13
Salem, Dr. Paul, vice president, Middle East Institute, 
  Washington, DC.................................................    24
    Prepared statement...........................................    26
Silverman, Lawrence, Acting Deputy Assistant Secretary for Near 
  Eastern Affairs, U.S. Department of State, Washington, DC......     5
    Prepared statement...........................................     7

                                 (iii)

  

 
                       LEBANON AT THE CROSSROADS

                              ----------                              


                       TUESDAY, FEBRUARY 25, 2014

                           U.S. Senate,    
           Subcommittee on Near Eastern and
                   South and Central Asian Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 3:44 p.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Tim Kaine 
(chairman of the subcommittee) presiding.
    Present: Senators Kaine and Risch.

             OPENING STATEMENT OF HON. TIM KAINE, 
                   U.S. SENATOR FROM VIRGINIA

    Senator Kaine. I want to call this meeting of the Senate 
Foreign Relations Committee, the Subcommittee on the Near 
Eastern, South and Central Asian Affairs to order.
    I want to welcome all who are here, especially our four 
expert witnesses who we will hear testimony from today.
    The Senate is currently in the middle of a vote on a 
veterans bill that will take a bit of time, but I want to take 
advantage of folks being here. We will proceed to a first panel 
and then a second panel with questions. And this is a very 
important topic.
    The topic of the hearing today is ``Lebanon at the 
Crossroads.'' I just returned from a trip in Lebanon last week 
with Senator Angus King of Maine. We went together because we 
serve together on the Armed Services and Budget Committees, but 
we also serve separately. I am on the Foreign Relations 
Committee, obviously, and Senator King is on the Intelligence 
Committee. We took a trip where we spent time in Israel, 
Palestine, Lebanon, and Egypt. In some ways, I think we were 
probably most excited about the trip to Lebanon because neither 
of us had been to Lebanon. We have strong feelings about the 
situation there, but we felt like we needed to ground those 
feelings and thoughts with some reality check.
    On the basis of that trip, I do feel very strongly that the 
title of this hearing is apt. Lebanon is at a crossroads. The 
Syrian conflict, about which we spent so much time in Foreign 
Relations and Armed Services, has devastated Syria and many of 
its neighbors, but I think at least in the American press and 
in the telling of the story about Syrian effects, Lebanon is 
often an overlooked neighbor with respect to stories about the 
Syrian crisis.
    Lebanon has been extremely generous in welcoming Syrian 
refugees into the country, as has been its tradition. And it 
has paid the highest price, I believe, in terms of the 
stability and security of the country. Lebanon deserves our 
attention and continued investment and partnership, and if we 
do that and we do it the right way, 
it will be good for the country and good for regional and 
global security.
    In July 2013, Senator King and I, in separate congressional 
trips, visited Turkey and Jordan, and when we were in Turkey 
and Jordan, we saw, experienced, visited refugee camps and 
talked with leaders about the strain of Syrian refugees on 
those U.S. partners. But it was important that we go back to 
Lebanon to have those same discussions, and what we saw was 
challenging. The population of Lebanon is a little bit over 4 
million and there is nearly a million--by many accounts, more 
than a million--Syrian refugees in Lebanon from Syria on top of 
refugees who have already been there from Palestine for many 
decades.
    Kind of wrapping your head around the notion of a refugee 
population that has come in the last couple years equivalent to 
25 percent of the population of the country is pretty dramatic. 
Imagine 80 million war refugees coming to the United States 
over the period of about 2 years. That would be 25 percent of 
our population. You can imagine how many challenges that would 
pose. And that size of refugee population obviously poses many, 
many significant difficulties for Lebanese civil society.
    Senator King and I set up this CODEL to visit Lebanon a 
couple of months ago, but through the fortuity of timing, right 
before we arrived in the country, the Government of Lebanon was 
able to form after many months of gridlock. As many of you know 
who follow Lebanon, the challenge of forming a government among 
competing factions with Cabinet ministries in a sufficient 
ratio to receive parliamentary approval is very, very 
difficult. We had a chance to be the first congressional 
delegation to meet with Prime Minister Salam and with President 
Suleiman after the formation of this government. We offered 
congratulations on the formation of the government, and we 
discussed with each of them the relatively prompt path for 
Presidential elections and the need to keep that path on time 
and the need for a balanced and strong ministerial statement, 
that statement of government that is done within 30 days of the 
formation of the government that establishes key priorities for 
this government in this phase.
    We think the formation of the government with Presidential 
elections in Lebanon--and the President is elected by 
Parliament on a two-thirds vote--the carrying out of 
Presidential elections with parliamentary elections to follow 
should provide assistance and should help in administering some 
of the challenges that result from the Syrian refugees. But 
that will not be at all sufficient. There must be much more 
work done by international partners, including the United 
States, if we care about the stability of Lebanon.
    During our time there, we met not only with elected 
officials. We also met with many NGOs administering aid to 
Syrian refugees. We met with members of Parliament and Cabinet 
ministers in the newly formed government. We met with the UNHCR 
Administrator, Ninette Kelley, to talk about refugee issues. 
And what we found bluntly was again and again even if we would 
ask questions about Lebanese internal issues, within a very 
short time the answer would end up being about Syria and about 
the Syrian challenge, not only the refugees coming into the 
country, but how the decision of the Hezbollah organization to 
participate so actively and visibly in the Syrian civil war has 
increased violence, largely Sunni-Shia violence, within the 
country of Lebanon.
    It was a challenging trip. One morning we were leaving the 
American Embassy to go have a meeting with President Suleiman 
and a bomb went off in downtown Beirut near where we were. You 
could hear it. You could see the smoke. This was an everyday 
event to many, sadly. We assumed that our meeting with 
President Suleiman would be canceled. If it were here, a bomb 
going off--two motorcycles exploding a bomb that killed many 
and injured many, many more in a part of downtown near where a 
meeting--the President would say, I got my hands full, I do not 
want to have the meeting. But President Suleiman basically 
wanted us to see the kind of challenge that he was dealing 
with. And so the meeting continued and in the midst of the 
meeting, the President was being interrupted with phone calls 
to try to talk to the Iranian Ambassador. This particular 
bombing was near an Iranian cultural center to talk to others.
    And it was a little bit heartbreaking to see the normality 
of the situation and to feel as visitors--we were just there 
for a brief time--but the challenge that must pose for the 
everyday life of those who might be caught in the cross-fire of 
violence occurring in random ways in random neighborhoods.
    On the question of Syria, I think we all agree that U.S. 
diplomatic energies notwithstanding, we are not happy with the 
path that the situation in Syria is taking, not by a long shot. 
The United States is the largest provider of humanitarian aid 
to Syrian refugees outside the country, including in Lebanon. 
The aid we give is through the U.N. and then distributed 
through worthy NGOs. We are the largest provider of 
humanitarian aid. We are deeply engaged in negotiations around 
the eventual destruction of the chemical weapons stockpile in 
Syria. We are deeply engaged in efforts at the U.N. Security 
Council or in Geneva to try to find the path forward. But while 
we are deeply engaged, we are not happy with the process and 
the progress. And so that continues to pose challenges that 
could be of a longstanding nature for Lebanon.
    Weeks ago, I called for a resolution, after meeting with 
victims of civil war in Syria who exited Syria through Lebanon, 
to try to provide more aggressive insertion of humanitarian aid 
into Syria, not just the provision of aid to Syrian refugees 
outside the country, but to focus on aid inside Syria. The U.N. 
last week adopted a resolution, finally overcoming Russia's 
propensity to veto, along with the support of China, even 
humanitarian aid resolutions. Last week there was a little bit 
of a breakthrough on that. But frankly, whether it was a 
breakthrough or not will only be determined by whether 
humanitarian aid starts to be delivered in a more significant 
way.
    But if we are to try to tackle the challenges and be a good 
partner and ally in Lebanon, we need to continue that, the 
delivery of humanitarian aid in Syria, the provision of 
humanitarian aid for refugees who have exited Syria, and a 
continued effort diplomatically to try to find a path to a 
resolution or cease-fire in the civil war.
    During our visit to Lebanon, we also had the opportunity to 
visit with Lebanese Armed Forces and explore the ways in which 
the United States is working in tandem with the armed forces. 
We found a high degree of satisfaction with that relationship 
within the armed forces. Many of the armed forces leaders we 
met in the Lebanese Armed Forces had done training either in 
the United States or with U.S. military leaders. And I would 
say throughout the region, probably in Lebanon the degree of 
satisfaction in the mil-to-mil relationship was probably the 
highest.
    That military armed forces has a significant challenge 
because in some critical areas, the armed forces are weaker 
than the Hezbollah militia. That is an unusual situation to 
contemplate from an American standpoint where it would not be 
imaginable that a militia in the United States would be more 
powerful than the armed forces. It kind of challenges concepts 
that you have about the strength of armed forces. But every day 
and in numerous ways, the American military leadership is 
working with the Lebanese Armed Forces to increase capacity, 
whether it is technology or training, and we found a high 
degree of satisfaction and appreciation for those 
relationships. We want to make sure that we continue this 
because it is not just the Syrian effect, but it is also al-
Qaeda and other extremist groups that we worry about. They must 
not be able to establish a base of operations in Lebanon.
    We want to ensure that United States policy and support for 
Lebanon remain strong, and we feel like the plight in Lebanon 
is an untold story of the Syrian civil war.
    Finally, before I introduce our first panel and we ask them 
to make opening statements and have a bit of a dialogue, the 
other reason to have this is our Lebanese American population 
is such a strong part of America. One of the reasons you do 
hearings like this is not only to cast a spotlight on a part of 
the world where a story has not been told, but also to honor 
Americans whose tradition and heritage is such that they have 
strong connections in Lebanon. And Lebanese Americans are often 
not removed from Lebanon. They are deeply engaged in Lebanon. 
We find that in Virginia and in so many communities throughout 
the United States. The Lebanese American contribution to our 
society, whether it is the foundation of St. Jude's Hospital 
which is a spectacular story or so many other areas, is 
something that is really notable. And when we have significant 
chunks of our population who care so deeply about their own 
homes, that in and of itself is a reason for the United States 
to be focused as well.
    So both because of the critical role of Lebanon in the 
Middle East but also because of this strong Lebanese American 
population in this country we decided to hold this hearing and 
focus on ways where the United States can continue to be a 
partner but find strategies and ways to be better partners.
    We have two panels with us.
    Senator Risch is the ranking member on the Subcommittee on 
the Near East, South and Central Asia, and I suspect Senator 
Risch will be here when the vote on the veterans bill is done 
at some point. When he arrives, I will ask if he has opening 
comments, and I may interrupt the testimony.
    But I want to move in to our two panels. Our first panel is 
two distinguished folks. I will introduce them both and then 
ask each to give opening statements. Then we will get into a 
dialogue.
    Larry Silverman is Acting Deputy Assistant Secretary of 
State for Near Eastern Affairs. Mr. Silverman was helpful in 
prepping me and Senator King to go do the visit to Lebanon last 
week. He has been Director of Israel and Palestinian Affairs 
for the Department of State and also served as Vice President 
Biden's Special Advisor for Europe and Russia. During the first 
half of his career, Mr. Silverman focused on issues related to 
the Middle East, serving overseas in Jordan and Syria and in 
Washington, served as special advisor to Bill Burns. Mr. 
Silverman, glad to have you with us.
    We are also pleased to be joined today by Maj. Gen. Mike 
Plehn, who is the Principal Director for Middle East Policy in 
the Office of the Secretary of Defense for policy. General 
Plehn helps execute defense policy and national security 
strategy for 15 Middle East nations, including Lebanon. And we 
are happy to have him with us today.
    With those introductions, I would like to ask Mr. Silverman 
first to offer your testimony. We accept your written testimony 
into the record. Try to summarize within 5 minutes. Then 
General Plehn. Then we will get into question and answer.

   STATEMENT OF LAWRENCE SILVERMAN, ACTING DEPUTY ASSISTANT 
 SECRETARY FOR NEAR EASTERN AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Silverman. Thank you very much, Mr. Chairman Kaine, and 
thank you for inviting me today to testify on the situation in 
Lebanon and our policy toward that very important country in a 
very volatile region as you saw directly.
    Your hearing comes at an important moment for Lebanon's 
security and stability. Public discussion of Lebanon, as you 
say, in the United States has often focused primarily on the 
impact of the Syrian refugee flows into that country. The 
refugee crisis that you witnessed firsthand during your recent 
visit to Lebanon represents an urgent, imperative need.
    That said, Lebanon faces broader issues, and the United 
States is helping Lebanon respond to these challenges because 
Lebanon's future affects important U.S. interests in the 
region, which are very obvious just by the geographical nature 
of Lebanon's location and its neighborhood.
    The Syrian conflict threatens progress and Lebanon's 
attempt to cement national identity and to establish lasting 
stability and an effective political system. The February 15 
formation of a government by Prime Minister Salam, after 10 
months of gridlock, is a welcome development for the Lebanese 
people and an opportunity for the United States and Lebanon to 
work together to achieve shared goals.
    The Lebanese people deserve a government that responds to 
their needs and protects their interests. As it works to gain a 
vote of confidence from Parliament and begins to exercise full 
powers, this government is in one sense better than its 
predecessor. Nearly all political factions are represented in a 
careful balance. The March 14 faction is in the government.
    In order to obtain confidence, the Cabinet, as you say, 
must now agree on a ministerial policy statement. We have 
expressed support for this government. How we work with it will 
depend on its policies and its actions.
    The next political hurdle, as you know, is the end of 
President Suleiman's term in office on May 25. Presidential 
elections should be conducted on time, freely, and fairly, and 
without foreign interference. We hope that the spirit that led 
to the government formation will also ensure that there is no 
Presidential vacancy.
    I think you know already, Mr. Chairman, of Lebanon's unique 
security problems: a porous border, Hezbollah's weapon 
stockpiles beyond government control, the need for all armed 
groups to be disarmed. And you know that existing political and 
sectarian differences have been intensified by the war in 
Syria. Hezbollah entered that war contrary to the agreement of 
all Lebanese parties to dissociate Lebanon from foreign 
conflicts. Hezbollah, on behalf of its foreign supporters, is 
dragging the Lebanese people into a war in defense of the Assad 
regime. Hezbollah's posture of acting inside the state when it 
is convenient but stepping outside the state to use arms and 
violence when it wishes is deeply threatening. And now 
extremists fighting the Assad regime and its Hezbollah backers 
have brought their fight inside Lebanon, through a wave of 
reprehensible terrorist attacks that have killed and injured 
scores in Beirut and other cities.
    Amidst this, the Lebanese Armed Forces have acted to 
maintain internal security. Just 3 days ago, two Lebanese Armed 
Forces soldiers were killed in a terrorist suicide bombing. As 
you know, the LAF has had recent counterterrorism successes, 
capturing some high-profile terrorists, including a facilitator 
for al-Qaeda-affiliated groups responsible for several suicide 
bombings.
    These incidents highlight the ongoing dangers from 
Hezbollah's support for the Assad regime and the flow of 
violent extremists, whether they be from the al-Nusra Front 
version in Lebanon, the Islamic State of Iraq, and the Levant, 
and the Abdullah Azzam Brigades, the last of which claim 
responsibilities for the most recent bombings.
    The critical material and training we provide to the LAF 
and the internal security forces builds their capacities to 
conduct operations against extremists, terrorists, and criminal 
organizations. My colleague, General Plehn, will offer details 
on this. We are trying to increase our foreign military 
financing to the LAF in order to modernize it and build its 
capabilities, particularly to secure its border with Syria.
    Mr. Chairman, we need to maintain the strong partnership we 
have built with the LAF. And we appreciate Congress for its 
continued support of State and Defense programs that enhance 
Lebanon's security and economic development.
    Mr. Chairman, you saw and you said that Lebanon hosts more 
Syrian refugees than any other country in the region, nearly 
940,000 or more. There is not a single Lebanese community that 
has not been affected by the refugee crisis. The United States 
is doing its part to help Lebanon deal with the burden, 
providing over $340 million in assistance. We urge other 
countries to meet the pledges that they have made.
    There has also been a very damaging economic spillover to 
the tourism sector to investment and trade. The World Bank has 
estimated that the crisis will cut real GDP growth by 2.9 
percent this year, and losses from the conflict would reach 
$7.5 billion.
    The most promising economic sector would be possible 
substantial reserves of offshore natural gas and even oil 
deposits. We hope those will be explored and contracted, and 
the State Department is engaging with both Lebanon and Israel 
to see about potential solutions to their maritime boundary 
dispute.
    Secretary General of the United Nations, Ban Ki-moon, and 
President Suleiman last September launched the International 
Support Group for Lebanon. We look to this group not to be a 
one-off in September, but to be an active vehicle by which the 
international community can provide the support to promote 
stability. Secretary Kerry will attend the next gathering of 
this group, the International Support Group, in Paris next 
week.
    The United States is also committed to ensuring an end to 
the era of impunity and assassinations and political violence 
in Lebanon. That is why we strongly support the work of the 
Special Tribunal for Lebanon, which just began 1 month ago the 
trials to determine and bring to justice those responsible for 
assassinating former Prime Minister, Rafik Hariri, and dozens 
of others. The Lebanese people, Mr. Chairman, have waited too 
long for accountability and justice. Unfortunately, as we all 
know, political violence still plagues Lebanon. Just in 
December, former Finance Minister and Ambassador to the United 
States, Mohammad Chatah, was assassinated.
    Mr. Chairman, Lebanon has faced existential challenges 
since its independence. The Taif Accord in 1989 helped end the 
civil war. U.N. Security Council Resolutions 1559 and 1701 
helped structure a return to stability, and the 2012 Baabda 
Declaration established the principle that all Lebanese parties 
and factions should abstain from regional conflicts. It needs 
to be implemented. The Baabda Declaration needs to be 
implemented by all parties.
    Fortunately, amidst all these problems, Lebanon also has 
friends, and the United States counts itself as a very 
important friend of Lebanon and will continue to be. We need to 
stand with the people of Lebanon now. It is in our national 
interest to promote a stable Lebanon, free of foreign 
interference and able to defend its interests.
    Thank you and I look forward to your questions.
    [The prepared statement of Mr. Silverman follows:]

                Prepared Statement of Lawrence Silverman

    Chairman Kaine, Ranking Member Risch, members of the subcommittee, 
thank you for inviting me to testify today on the situation in Lebanon 
and our policy toward that important country in a very volatile region.
    Your hearing comes at an important moment for Lebanon's security 
and stability--and that of the entire Levant. Public discussion of 
Lebanon in the United States has often focused primarily on the impact 
of the Syrian refugee flows into the country. This attention, including 
the Senate's hearing on this subject last December, is warranted.
    Mr. Chairman, the refugee crisis that you witnessed first-hand 
during your recent visit to Lebanon represents an urgent, imperative 
need. That said, it is one of several issues Lebanon's leaders and the 
Lebanese people face today. In addition to the refugee crisis, I would 
like to discuss today the political, security and economic challenges 
Lebanon faces, and how the United States is responding to all these 
challenges, because Lebanon's future affects important U.S. interests 
in the region.
    The United States has a long history of diplomatic engagement with 
Lebanon to promote our interests in regional stability, the development 
of democracy, economic prosperity, and the effort to counter terrorism 
and extremism. We have worked to support and rebuild Lebanese state 
institutions that were left in ruins as a result of the civil war, and 
we have provided development assistance that helps to improve the lives 
and livelihoods of Lebanese citizens. Since the end of the Syrian 
occupation in 2005, we have accelerated our assistance to crucial state 
institutions to enable them to take on the leadership roles and 
management functions that a national government should perform.
    Mr. Chairman, it is essential that the international community 
stand by responsible forces in Lebanon in a broader sense, and 
particularly so in the next several months. Let me explain why.
                          political challenges
    Lebanon is at a critical point in its attempt to cement a national 
identity and to establish lasting stability and an effective political 
system. The conflict in Syria threatens the progress it has made. 
Lebanon's political leaders face a series of political hurdles in the 
first few months of this year; it has just overcome the first of these. 
The February 15 formation of a government by Prime Minister Salam, 
after 10 months of stalemate and gridlock, is a welcome development for 
the Lebanese people and an opportunity for the United States and 
Lebanon to work together toward shared goals. We thank former Prime 
Minister Najib Mikati for his service, and we thank President Michel 
Sleiman, who has worked to steer Lebanon during very difficult times, 
and who worked with PM-designate Salam for months to form this Cabinet.
    The Lebanese people deserve a government that responds to their 
needs and protects their interests. This new government is comprised of 
eight members from the March 14 coalition, eight from the March 8 
coalition, and eight others without formal affiliation. As it works to 
gain a vote of confidence from Parliament and begins to exercise its 
full powers, this new government is in a sense an improvement over its 
predecessor: nearly all political factions are represented in a careful 
balance, and after 3 years outside of government, the March 14 
coalition is now part of the Cabinet.
    It is clear that the March 14 coalition determined that its 
interests in stabilizing Lebanon and promoting democracy and good 
governance were better served by participating in this government. In 
order to gain that vote of confidence, the Cabinet must first come to 
agreement on a ministerial policy statement. We have expressed support 
for the new government, but how we will work with it depends on its 
policies and actions.
    The next political hurdle facing Lebanon is the end of President 
Sleiman's term in office on May 25. We have made clear to all those 
concerned in Lebanon that the United States believes Presidential 
elections should be conducted on time, freely and fairly, and without 
foreign interference. We hope that the interest in a stable Lebanon 
that drove the parties to reach agreement on the new Cabinet will also 
drive them to ensure that there is no vacancy. Lebanon needs 
responsible leadership that will address the challenges facing Lebanon 
and fulfill Lebanon's international obligations.
                          security challenges
    Lebanon has truly unique security problems: an undemarcated and 
porous border with Syria that facilitates terrorist infiltration; areas 
of the country outside full state control; Hezbollah's weapon 
stockpiles beyond government authority; the continuing need to 
implement UNSCR 1701 that called for the disarmament of all armed 
groups in Lebanon and stressed the importance of full control of 
Lebanon by the Government of Lebanon; and a history of foreign 
interference in its internal matters.
    Mr. Chairman, as you saw clearly during your visit, challenges to 
Lebanon's security are rising. Existing political and sectarian 
differences have been intensified by the war in Syria. Hezbollah 
entered that war against the earlier agreement of all Lebanese parties 
and the Lebanese Government to ``dissociate'' the country from foreign 
conflicts. The Lebanese people know only too well the repercussions of 
spillover from the Assad regime's brutal suppression of its own people. 
Syrian aircraft and artillery have violated Lebanon's borders with 
impunity. Hezbollah is dragging the Lebanese people into a war in 
defense of an Assad regime whose continuation can only result in more 
conflict, more terrorism, and more instability for Lebanon. It does so 
not in the interest of Lebanon, but in its own narrow interests and on 
behalf of its foreign sponsors. Hezbollah's posture of acting inside 
the state when it is convenient, but stepping outside the state to use 
arms and violence when it deems necessary for its self-interests 
remains deeply disturbing and threatening.
    And now, extremists fighting the Assad regime and its Hezbollah 
backers have brought that fight inside Lebanon, through a wave of 
reprehensible terrorist attacks that have killed and injured scores in 
Beirut and other cities.
    The Lebanese Armed Forces (LAF) has acted to maintain internal 
security, and it has taken losses in those operations. Twenty LAF 
soldiers were killed in a June 2013 attempt to arrest an extremist and 
his followers in Sidon, and the LAF has intervened a number of times in 
Tripoli in an effort to mitigate politico-sectarian clashes. The LAF 
has had some recent counterterrorism successes. It has captured a 
number of high-profile terrorists, including a facilitator for several 
al-Qaeda-affiliated groups that have carried out a spate of brutal 
suicide bombings in Beirut, Hermel, and other Lebanese towns.
    Mr. Chairman, as our Ambassador in Beirut, David Hale, said of the 
terrorist incident that occurred during your visit, ``these abhorrent 
acts of . . . terrorism threaten the principles of stability, freedom, 
and safety that the people of Lebanon have worked so hard to uphold and 
we urge all parties to refrain from retaliatory acts that contribute to 
the cycle of violence.''
    These incidents highlight the ongoing dangers to Lebanon from the 
Syrian conflict, Hezbollah's armed support for the Assad regime, and 
the flow of violent extremists (such as the Nusra Front, the Islamic 
State of Iraq, and the Levant, and the Abdullah Azzam Brigades) into 
Lebanon, who seek to justify their indiscriminate attacks as 
retaliation against Hezbollah's involvement in Syria. Of course, the 
flow of these fighters is a problem for several states in the region. 
The states from which these fighters are coming are concerned about the 
dangers these fighters will present when they return to their home 
countries.
    Central to any country's stability is a trained and capable 
security sector that is accountable to the people and the state. The 
critical support we provide to the LAF and the Internal Security Forces 
(ISF) is intended to build their capacities to conduct operations 
against extremists and criminal organizations and to ensure security 
throughout the country, including along its borders. Our assistance to 
the LAF--the United States has provided over 70 percent of LAF 
acquisitions--strengthens its ability to serve as the sole institution 
entrusted with the defense of Lebanon's sovereignty.
    We are trying to increase this assistance in order to modernize the 
LAF, and in particular to build its capabilities to secure its own 
borders with Syria, which are porous. Providing the LAF with the 
ability to better control its borders is crucial.
    U.S. assistance helps ensure that extremist actors, such as 
Hezbollah, Iran, or the Syrian regime, have minimal opportunity to 
influence the LAF. We continually assess our policy of engagement with 
and assistance to the Government of Lebanon to ensure that no foreign 
terrorist organizations (including but not limited to Hezbollah) 
influence or benefit from the assistance we provide to the LAF and the 
ISF.
    Our sustained support through the funding that Congress approves--
FMF, IMET, and DOD 1206 funds--is critical to improving the 
capabilities of the LAF. Our IMET program in particular has built 
lasting professional relationships between the senior ranks of the LAF 
and the U.S. military, as well as strengthened the values of civilian 
leadership and respect for rule of law within the LAF officer corps. My 
Department of Defense colleague, General Plehn, will provide greater 
detail of our relationship with the LAF, but I want to emphasize the 
importance of the relationships we have built with the LAF and with the 
ISF over the years. My DOD colleagues and we thank you for your 
continued support of State and Defense programs that provide for 
Lebanon's security and economic development.
    As Chairman Kaine heard directly from LAF Commander Kahwagi in 
Lebanon, the LAF is a beacon of cross-confessional integration for the 
entire country. It remains one of the most respected national 
institutions in Lebanon because it reflects the diversity of the 
country: it is in fact the sole national institution able to counter 
destabilizing influences from within Lebanon and without. Supporting 
the LAF strengthens its ability to serve as a model for other Lebanese 
institutions. Our assistance has been effective and is welcomed by 
Lebanon; it has helped create important relationships. We need to 
maintain this strong partnership.
    You have seen reports that Saudi Arabia will provide $3 billion for 
the LAF. International assistance to the LAF can help build up the 
capabilities the LAF needs. The United States believes international 
donors can complement each other's efforts in order to maximize the 
growth of needed capabilities for an armed force whose troops are badly 
stretched across the country. We are in contact with the Governments of 
Saudi Arabia and France regarding this assistance to promote maximum 
coordination.
                        humanitarian challenges
    Lebanon hosts more Syrian refugees than any other country--both per 
capita and in absolute terms. There are currently nearly 940,000 Syrian 
refugees--some 20 percent of the total population now, as well as 
51,000 Palestinian refugees from Syria in Lebanon, of which the vast 
majority reside in host communities in rented accommodations, 
unfinished buildings, or in informal tented settlements in more than 
1,600 localities throughout the country. There is not a single Lebanese 
community that has not been affected by the refugee crisis. With 
refugee arrivals continuing, the sheer volume of need has overwhelmed 
ability of the central government and local municipalities to respond 
to the enormous challenge of providing public services to this large 
and growing population.
    The United States is doing its part, providing over $340 million in 
humanitarian assistance since the beginning of the Syrian conflict to 
support the needs of refugees in Lebanon and the communities that host 
them, including $76.4 million announced by Secretary Kerry at the 
International Humanitarian Pledging Conference for Syria held in Kuwait 
a month ago. Last September at the inaugural meeting of the 
International Support Group for Lebanon, Secretary Kerry announced $30 
million in assistance specifically aimed at helping the communities 
that host these refugees. As you know, Lebanon does not have formal 
refugee camps for Syrians; almost all of the refugees from Syria live 
in Lebanese communities, placing strains on basic infrastructure and 
health and educational systems. We appreciate the generosity and 
hospitality of the Lebanese Government and the Lebanese people and 
understand the enormity of the influx.
    In its most recent humanitarian appeal, the U.N. is seeking $1.7 
billion in 2014 to adequately respond to the refugee crisis in Lebanon, 
on top of the money that the government of Lebanon is already spending 
on the crisis. The scope of the crisis is an unprecedented challenge 
for the U.N. humanitarian agencies and nongovernmental organizations; 
the Lebanese will face this challenge for some time. The international 
community must step up to provide both humanitarian and development 
assistance to assist these refugees and the communities that host them 
in order to bolster Lebanon's stability while meeting urgent 
humanitarian needs.
    We urge those countries that have made pledges of funds for Lebanon 
and the other neighboring countries hosting refugees, as well as for 
those in need remaining inside Syria, to fulfill these commitments as 
quickly as possible, and to be responsive to future appeals, as the 
United States will be.
                          economic challenges
    The spillover of the Syrian conflict, including terrorist attacks 
in Beirut, has weakened Lebanon's tourism sector, investment, and 
foreign trade--all important components of Lebanon's open economy. 
Uncertainty has depressed consumption, with wealthy tourists gone and 
more Lebanese reluctant to spend. Investors are delaying decisions, and 
Lebanon's land trade routes have been disrupted. This year will likely 
be the fourth consecutive year of slowing growth for the Lebanese 
economy. For example, the World Bank has estimated that the crisis will 
cut real GDP growth in Lebanon by 2.9 percent this year.
    Our economic assistance programs encourage growth in Lebanon 
through improving the technical expertise of small businessowners and 
their access to financial resources, especially in the agricultural 
sector. We also encourage the Lebanese Government to do more to promote 
economic reform, including privatization of its moribund public sector 
industries, though this has been stymied due to political gridlock.
    Banking is a pillar of the Lebanese economy, and the banking 
sector, despite all of Lebanon's economic challenges, saw deposits grow 
significantly in 2013, providing economic stability through its 
purchases of government debt and funding of private sector activity. 
Given its importance, it is all the more critical that the banking 
sector in Lebanon safeguard Lebanon's place in the international 
financial system by doing all it can to protect itself and 
correspondent banks in the United States and elsewhere from money 
laundering and terrorist finance. In coordination with the Treasury 
Department, we engage with the Central Bank of Lebanon and with 
Lebanese banks to ensure that they have vigorous systems to combat 
these illicit finance threats.
    The most promising economic sector in the medium- to long-term may 
be the hydrocarbons industry. Lebanon may have substantial reserves of 
offshore natural gas and maybe even oil deposits. However, the lengthy 
political stalemate, as well as a maritime boundary dispute with 
Israel, has prevented Lebanon from further exploring its offshore 
resources. As a result, no exploration has taken place, and any 
potential finds would take a number of years to begin producing.
    We expect the newly formed Cabinet may take steps to restart the 
process to allow international oil companies to enter the Lebanese 
market and explore. The State Department is engaging with both sides to 
explore potential solutions to the maritime boundary dispute. Those 
discussions have progressed well, and we hope they will resume with the 
new government now in place.
             the importance of broad international support
    In the face of all these challenges, U.N. Secretary General Ban Ki-
moon and President Michel Sleiman mobilized support for Lebanon's 
stability, sovereignty, and state institutions by launching last 
September the International Support Group for Lebanon, which currently 
consists of the U.N., the permanent members of the U.N. Security 
Council, the World Bank, the Arab League, Germany, Italy, and the EU. 
It was a strong demonstration of international support for Lebanon's 
sovereignty and stability, and for responsible Lebanese political 
actors.
    We look to the ISG to be an active vehicle by which the 
international community can demonstrate political and financial support 
to promote stability and to help Lebanon address specific challenges. 
Secretary Kerry will attend the next gathering of the ISG in just 8 
days, in Paris.
    The United States, along with many others in the international 
community, is committed to ensuring an end to the era of impunity for 
assassinations and political violence in Lebanon. That is why we 
strongly support the work of the Special Tribunal for Lebanon. One 
month ago, the Tribunal began its initial trials to bring to justice 
those responsible for assassinating former Prime Minister Rafik Hariri 
in 2005, along with dozens of innocents killed in this and other 
attacks. The Lebanese people deserve accountability and justice. The 
commencement of the trials is an important step, but political violence 
still plagues Lebanon. Former Finance Minister and Ambassador to the 
United States Mohammad Chatah was assassinated in December in downtown 
Beirut. Two other March 14 leaders survived assassination attempts in 
2012--a minister in the current Cabinet, Boutros Harb, and Lebanese 
Forces leader Samir Geagea. ISF Information Branch Chief Wissam al-
Hassan was killed in a car bomb in Beirut in October 2012.
    Chairman Kaine, Ranking Member Risch, Members: Lebanon has faced 
many existential challenges since gaining independence in 1943, and 
today it faces similar challenges from the war in Syria. Lebanon has 
found reliable international partners to see it through some of its 
darkest periods and emerge the stronger for it. The 1989 Taif Accord 
was the basis for ending 15 years of civil war, and its 
multiconfessional National Pact remains in effect. U.N. Security 
Council Resolutions 1559 and 1701 helped structure a return to 
stability. The 2012 Baabda Declaration established the principle that 
all Lebanese parties and factions should abstain from regional 
conflicts. It needs to be implemented by all parties.
    But Lebanon has friends, and the United States is one of them. We 
need to stand with the people of Lebanon; it is in our national 
interest to promote a stable, secure, and sovereign Lebanon, one that 
is free of foreign interference and that is able to defend its own 
interests. And we will continue our efforts to end the conflict in 
Syria, as that conflict--left unchecked--will, among other 
repercussions, continue to destabilize Lebanon and other states in the 
region.

    Senator Kaine. Thank you, Mr. Silverman.
    General Plehn.

STATEMENT OF MAJ. GEN. MICHAEL T. PLEHN, PRINCIPAL DIRECTOR FOR 
 MIDDLE EAST POLICY, OFFICE OF THE SECRETARY OF DEFENSE, U.S. 
             DEPARTMENT OF DEFENSE, WASHINGTON, DC

    General Plehn. Thank you, sir. Chairman Kaine, thank you 
for the opportunity to speak today, and thank you for your help 
in drawing attention to Lebanon's security challenges, 
especially those due to the Syrian conflict. The impact on 
Lebanon from the conflict in Syria has become acute, as you 
well know, and you have described the impact of the refugees, 
as has Mr. Silverman as well.
    But the Syrian conflict also is attracting foreign fighters 
from across the region and around the world. Those foreign 
fighters are becoming battle-hardened and gaining experience 
that could have destabilizing effects in the years to come.
    Of great concern--and you have mentioned it already--the 
Islamic State of Iraq and the Levant, in particular, has 
exploited the growing governing vacuum in eastern Syria to 
carve out territory to train its fighters, recruit more 
fighters, and plan attacks. Both the ISIL and al-Nusra Front 
have established a presence in Lebanon and are seeking to 
increase their cooperation with Sunni extremist groups already 
operating in Lebanon. And as you noted, during your recent 
visit the Sunni terrorist attacks in Lebanon certainly are on 
the rise.
    Since 2014, seven attacks against Shia population centers 
have been executed. Approximately 10 individuals have died and 
more than 120 have been wounded in those attacks.
    I would tell you that the Lebanese Armed Forces have taken 
a variety of bold measures to maintain stability in Lebanon and 
counter the destabilizing effects that the Syrian conflict 
risks to Lebanon's security. The increased operational tempo of 
Lebanese Armed Forces' deployments over the past few months 
reflects their commitment to Lebanon's security. In fact, the 
last willingness to exercise its role as the sole, legitimate 
defense force in Lebanon has made it a target as well, and just 
last weekend, second border regiment personnel were killed when 
a suicide bomber detonated a vehicle near an LAF checkpoint.
    I would also tell you that our continued engagement and 
assistance to Lebanon and the Lebanese Armed Forces is all the 
more important in this time of increased challenges to 
Lebanon's stability. As mentioned in previous testimony, the 
Lebanese have just agreed upon a new government. This important 
step provides us with an opportunity to increase our 
engagements both with Lebanon's Government as a whole and the 
Lebanese Armed Forces in particular.
    For fiscal year 2014, we have provided approximately $71 
million in foreign military financing, thanks to the U.S. 
Congress, and $8.7 million in fiscal year 2013 1206 funding. 
Both of those strengthen the capacity of the Lebanese Armed 
Forces and support its mission to secure Lebanon's borders, 
defend the sovereignty of that state, and implement, as Mr. 
Silverman noted, U.N. Security Council Resolutions 1559 and 
1701.
    Since 2005, the United States has allocated nearly $1 
billion to support the Lebanese Armed Forces and internal 
security forces, making us Lebanon's key partner in security 
cooperation.
    Recently in December 2013, President Suleiman announced the 
Saudi Arabia will grant Lebanon $3 billion to purchase defense 
items from the French. So in concert with international 
partners such as the French and in line with the International 
Support Group for Lebanon that Mr. Silverman mentioned, we 
fully support strengthening the Lebanese Armed Forces and will 
continue to work with partners to ensure our assistance is 
complementary and used effectively to meet these growing 
challenges.
    I would also tell you that our International Military 
Education and Training program with Lebanon is our fourth-
largest in the world. It builds strong ties between the United 
States and Lebanon by bringing Lebanese officers to the United 
States. In fiscal year 2013, Lebanon received $2.9 million 
under the IMET program. That allowed 67 Lebanese military 
students to attend education and training classes here in the 
United States. Since 1985, this program has brought more than 
1,000 Lebanese military students to the United States for 
education and training.
    Similarly, our section 1206 assistance has enabled the LAF 
to monitor, secure, and protect Lebanon's borders against 
terrorist threats and the illicit transfer of goods. Since 
2006, the United States has provided more than $100 million in 
section 1206 to assist the LAF.
    We are also focused on the LAF's desire for institutional 
reform. The DOD has just instituted a defense institution 
reform initiative with the LAF. This initiative complements a 
U.S. whole-of-government effort supporting Lebanese security 
sector reform.
    In closing, sir, I would say that our positive relationship 
with and continued support to Lebanon and the Lebanese Armed 
Forces is now more important than ever. And I thank you and the 
other distinguished members of your subcommittee for not only 
calling this hearing but for your abiding interest and support 
for Lebanon. Thank you.
    [The prepared statement of General Plehn follows:]

             Prepared Statement of Maj. Gen. Michael Plehn

    Chairman Kaine, Ranking Senator Risch, and other distinguished 
members of the subcommittee, I appreciate the opportunity to speak to 
you today about the evolving security situation in Lebanon in relation 
to the conflict in Syria and the importance of our partnership with the 
Lebanese Armed Forces.
    Your help in drawing attention to Lebanon's security challenges, 
especially to those due to the Syrian conflict, is both timely and 
beneficial.
    The impact on Lebanon from the conflict in Syria has become acute. 
In Lebanon, there are now nearly 1 million refugees from Syria, equal 
to approximately 20-percent of the current population in Lebanon. 
Despite Lebanon's official dissociation policy regarding the Syrian 
conflict, Hezbollah is militarily involved in Syria, and sectarian 
tensions are spilling over the Syria-Lebanon border. Lebanese towns and 
villages near the border with Syria regularly experience shelling from 
Syria--both by the Syrian regime and Syrian opposition forces--due to 
regime allegations that opposition fighters use Sunni-dominated areas 
as safe havens as well as opposition allegations that Hezbollah uses 
Shia-dominated areas to enter Syria and launch attacks.
    The Syrian conflict is attracting foreign fighters from across the 
region and around the world. We assess there are now significantly more 
foreign fighters in Syria than there were foreign fighters in Iraq at 
the height of the Iraq war. Many of these fighters are finding their 
way to a number of fighting units, including terrorist groups such as 
the al-Nusra Front, and the Islamic State of Iraq and the Levant. These 
foreign fighters are becoming battle-hardened and gaining experience 
that could have destabilizing effects in the years to come. Of great 
concern, the Islamic State of Iraq and the Levant, in particular, has 
exploited the governing vacuum in eastern Syria to carve out territory 
to train its fighters, recruit more of them, and plan attacks. Both the 
Islamic State of Iraq and the Levant and al-Nusra Front have 
established a presence in Lebanon and are seeking to increase their 
cooperation with Sunni extremists groups already operating in Lebanon. 
These Lebanese-based groups have claimed a number of recent attacks in 
Lebanon.
    Senator Kaine, as you experienced during your recent visit to 
Beirut, Sunni terrorist attacks in Lebanon are on the rise. Since the 
beginning of 2014 alone, seven suicide attacks have hit Shia population 
centers. Last week's twin bombing in Bir Hassan, as reported in the 
press, likely was targeting the Iranian Culture Center in the area in 
south Beirut. Approximately 10 individuals died and more than 120 were 
wounded. The al-Qaeda-linked Abdallah Azzam Brigades claimed 
responsibility for the attacks. Leaders across Lebanon's political 
spectrum have condemned the attacks.
                the lebanese armed forces and stability
    The Lebanese Armed Forces has taken a variety of bold measures to 
maintain stability in Lebanon and counter the destabilizing effects 
that the Syrian conflict risks to Lebanon's security. The increased 
operational tempo of Lebanese Armed Forces deployments over the past 
few months reflects their commitment to Lebonon's security. In the last 
7 months, we have seen our partners in the Lebanese Special forces 
deploy to Sidon for counterterrorism operations, to Tripoli to conduct 
stability operations, and to Arsal to provide security for the 
populations affected by Syria's instability. Throughout this period, 
the 2nd Intervention Regiment conducted stability operations and 
supported counterterrorism and counternarcotics efforts in the Bekaa 
Valley. The LAF's willingness to exercise its role as the sole 
legitimate defense force in Lebanon has made it a target as well. Just 
last weekend, 2nd Border Regiment personnel were killed when a suicide 
bomber detonated his vehicle at a LAF checkpoint.
    U.S. and international assistance builds the capacity of the 
Lebanese Armed Forces to serve the democratic government and people of 
Lebanon. The Lebanese Armed Forces have organized themselves 
effectively to maintain a tremendously high operational tempo for many 
of its units, and have demonstrated the ability to make appropriate 
requests for and use of equipment, as well as unity and professionalism 
in numerous operations. One recent example of the Lebanese Armed 
Forces' success was the February 12, 2014, arrest of an Abdallah Azzam 
official, which led to the discovery of and dismantling of a large car 
bomb.
               u.s. support to the lebanese armed forces
    Our continued engagement and assistance to the Lebanese Armed 
Forces are all the more important in this time of increased challenges 
to Lebanon's stability. As mentioned in previous testimony, the 
Lebanese have just agreed upon a new government formed by Prime 
Minister Tammam Salam. This is an important step for the government and 
people of Lebanon, and provides us with an opportunity to increase our 
engagement with Lebanon's Government as a whole and the Lebanese Armed 
Forces in particular.
    The emergence of the Lebanese Armed Forces as Lebanon's sole 
legitimate defense force is a critical component of Lebanon's long-term 
stability and development. U.S. assistance to Lebanese Armed Forces, 
approximately $71 million in fiscal year 2014 FMF and $8.7M in fiscal 
year 2013 1206 funding, strengthens the capacity of the Lebanese Armed 
Forces and supports its mission to secure Lebanon's borders, defend the 
sovereignty of the state, and implement U.N. Security Council 
Resolutions 1559 and 1701. Since 2005, the United States has allocated 
nearly $1 billion to support the Lebanese Armed Forces and Internal 
Security forces, making us Lebanon's largest partner in security 
cooperation--a key pillar of our bilateral relationship.
    In December 2013, President Sleiman announced that Saudi Arabia 
will grant Lebanon $3 billion to purchase defense items from the 
French. In concert with international partners such as the French, and 
in line with the International Support Group for Lebanon, we fully 
support strengthening the Lebanese Armed Forces and will continue to 
work with partners to ensure that our assistance is complementary and 
used effectively to meet these growing challenges.
    Our International Military Education and Training (IMET) program 
with Lebanon is the 4th-largest in the world. IMET builds strong ties 
between the United States and Lebanon by bringing Lebanese officers and 
officials to the United States for professional development and to 
train alongside U.S. forces. In fiscal year 2013, Lebanon received 
$2.9M under the IMET program that allowed 67 Lebanese military students 
to attend education and training classes in the United States. Since 
1985, the IMET program has brought more than 1,000 Lebanese military 
students to the United States for education and training.
    Our Section 1206 assistance has enhanced the Lebanese Armed Forces' 
ability to monitor, secure, and protect Lebanon's borders against 
terrorist threats and the illicit transfer of goods. Since 2006, the 
United States has provided more than $100M in Section 1206 funding to 
assist the Lebanese Armed Forces to build its counterterrorism 
capabilities. Most recently, Congress approved $9.3M in FY 2014 1206 
funding to enhance Lebanon's border security capability further by 
providing the Lebanese Armed Forces' 2nd Border Regiment with 
additional surveillance equipment to guard its portion of the border--
including radars, seismic sensors, and cameras.
    We are also focused on supporting the Lebanese Armed Forces' desire 
for institutional reform; the Department of Defense has just started a 
Defense Institution Reform Initiative (DIRI) with the Lebanese Armed 
Forces. This initiative complements a U.S. whole-of-government effort 
supporting Lebanese security sector reform. U.S. Central Command 
continues to provide support to the training and professionalization of 
the Lebanese Armed Forces, while the Department of State Bureau of 
International Narcotics and Law Enforcement Affairs funds a program to 
strengthen the capability and management capacity of the Internal 
Security Forces. All of these programs help to strengthen our 
relationship and ties between our two militaries and throughout their 
ranks.
                           supporting lebanon
    The crisis in Syria will likely not end soon, nor unfortunately 
will its impact on neighboring Lebanon. Our positive relationship with, 
and continued support to, Lebanon and the Lebanese Armed Forces is now 
more important than ever. The effectiveness of U.S. security assistance 
to the Lebanese Armed Forces is evident in how well it has managed the 
violence that has plagued Lebanon over the course of the conflict in 
Syria. The Lebanese Armed Forces is a critical pillar of Lebanon's 
stability and its ability and commitment to curtailing sectarian 
fighting and terrorism has been a significant factor in preventing 
Lebanon from descending into greater violence.

    Senator Kaine. I just cannot help but comment that only the 

acronym ``happy''--the U.S. military could use the phrase 
``LAF'' with a straight face. Lebanese Armed Forces. I am sure 
everyone knows that, but even the armed forces gave me a hat 
with LAF on it that I am now wearing around.
    So let me just ask you first. When we went to Lebanon--for 
either or both of you--a lot of what we heard before we went 
was the warning that Lebanon is approaching a breaking point, 
and that would be described differently by different people 
asking that. Is that kind of language alarmist or accurate?
    Mr. Silverman. Mr. Chairman, I would say we do not quite 
use that language only because Lebanon has been through so 
much, more than maybe arguably any other country. But this is a 
very, very serious situation, and Lebanon is facing very, very 
serious threats. It faced threats even before the Syrian war to 
its independence and its sovereignty and its security 
obviously. There were political assassinations before the 
Syrian conflict, for example. But the Syrian conflict has 
really exacerbated this.
    The Lebanese are fond of using an Arabic word that 
translates into ``saturation'' when they talk about the refugee 
issue, that they are saturated. In other words, even though you 
could give more money--the international community can and 
should give more money, but they are simply saturated as a 
society with this. But we are appreciative that they are 
reaching out and accepting these people.
    But I would say there are real risks and threats, and that 
is why it is so important that the international community get 
behind the moderate, the responsible voices in Lebanon, that 
are very concerned about threats to stability.
    Senator Kaine. General Plehn, any thoughts on that 
question?
    General Plehn. Yes, sir. I would say that Lebanon has 
proven to be amazingly resilient, given the stresses that they 
have been put under certainly from what has been happening in 
Syria as well. And I think a key component of that resilience, 
at least on the military side with the Lebanese Armed Forces, 
has been that engagement between the United States and the 
Lebanese Armed Forces. They have shown some very good progress 
recently certainly in counterterrorism fronts as well.
    Thank you.
    Senator Kaine. We spent time with the new Prime Minister 
talking about the formation of the government. And the system 
and the steps over the next couple of months are a little bit 
unusual, and I wanted to get your opinions about what might 
likely occur. We are nearing the end of a 6-year Presidential 
term, and the expectation is there would be Presidential 
elections by late May. If there is a successful Presidential 
election, the newly formed Prime Minister and government would 
then dissolve after 3 months. But I gather they would dissolve 
with the feeling that they had done their job, and depending on 
how the Presidential election goes, there is some chance that 
that Cabinet and Prime Minister could be the nucleus of the 
next government working together with a new President. Am I 
reading this the right way?
    Mr. Silverman. You are, Mr. Chairman.
    One other comment on your first question, just to echo what 
General Plehn just said, which is this is a very tough 
situation. It could be much worse and much tougher had we not 
had the institution of the Lebanese Armed Forces and the 
internal security forces to help, assisted by us and the 
development of this relationship.
    This is a unique--it is an overused word. I think this is a 
unique political situation. So the government now has to try to 
reach agreement on a ministerial statement. If it does not, it 
goes on being a caretaker, which means it is not able to make--
even before the Presidential election--is not able to make real 
policy. And some of these economic decisions, which tend to get 
lost--if the government does not, for example, pass decrees, it 
cannot issue tenders for this gas exploration, for example. And 
these are issues that generally have not been taken up by 
caretaker governments. That is why they need to have a fully 
empowered government to do that.
    And as you say, it may be that if we can take the spirit 
that reached this compromise to reach a government, if that 
extends to the Presidential election, then we have a President. 
Then we will have another government. Hopefully that would be 
easier to form, given that we have gone through a government 
fully empowered or a vote of confidence and a Presidential 
election.
    But there is no sugar coating. This gets down to a very 
complicated process in which a lot of equities have to be taken 
into account. And as you see, one day there is going to be a 
government, the next day there will not be a government. And we 
thought that we might have a ministerial statement even 
yesterday. Now we are waiting for them. I hope they can reach 
agreement on that. So I hope that we can build upon what spirit 
we have had in reaching the formation of a government.
    Senator Kaine. The selection of the President is also 
different than we might think of it here. The selection of the 
President is done by Parliament based on a two-thirds vote. It 
is not automatic that you get a two-thirds vote for a 
President. We were in dialogue with local leaders, and one of 
the possibilities they indicated was that in the past, when it 
has been difficult to find a candidate 
who could reach the two-thirds threshold, that there would be a 
temporary adjustment of the constitution to allowing the 
sitting President to have a holdover period. It might be a 
year. It might be 2 years.
    We met with President Suleiman and he certainly did not 
suggest anything about staying past his 6-year term.
    But based on what you know now, what do you think is the 
prospect that by May there could be the candidates who could 
come out who might be able to develop a two-thirds support in a 
Parliament for the selection of a new President post-late May?
    Mr. Silverman. No. You are exactly right, Mr. Chairman. And 
I cannot put a percentage on the possibility that this will 
happen. We believe it is important to do these elections, which 
are parliamentary not popular elections, on time and according 
to the constitution. You are right. They have gotten around 
this before by extension of the President. I do not know if 
that will happen. The intent right now is to truly elect a 
President. And there are different means of electing a 
President, whether you work it out and bring it as more of kind 
of a rubber stamp by the Parliament or you have a genuine 
debate within Parliament. We do not know exactly what will 
happen. So it is really very, very difficult to guess at this 
point. I would say the odds increased of an election of a 
President, but who knows? And just the add to the complexity, 
then we would have another government. Then it would have to 
form itself up.
    And remember, we are looking at parliamentary elections 
again later this year because this Parliament will go out of 
business in November just based on the previous extension of 
its mandate. We had wanted elections before, and I think the 
Lebanese wanted elections before but they were not able to 
organize parliamentary elections. So it is even more 
complicated than that. So this is a very eventful political 
year for Lebanon.
    Senator Kaine. With Hezbollah openly declaring its support 
for Assad in Syria and sort of going all in to send troops in 
in Syria, how has that affected Hezbollah politically inside 
Lebanon? I know there has been controversy about that decision 
by Hezbollah to do that. It certainly has engendered acts of 
Sunni violence that have spiked, largely attributed to 
Hezbollah's decision to go all in in Syria. So talk about 
Hezbollah's political support in Lebanon and how the decision 
to focus on Syria has affected their political support?
    Mr. Silverman. As I said in my remarks, Mr. Chairman, this 
is not a war in which the people of Lebanon wanted or want to 
be involved. This is, in effect, Hezbollah dragging the people 
of Lebanon into a foreign war.
    I think there have been political costs for Hezbollah in 
this. I cannot say if that is why we have a government today. I 
think there is a lot of concern across the board, across the 
political spectrum regarding the violence that you witnessed 
directly and that has plagued Lebanon of late but even more so 
than throughout its political life. So I think there have been 
political costs. And we will have to see. That is why elections 
are important. We will have to see how that manifests itself. 
You cannot automatically translate it, but I think there is 
deep-seated concern on the part of the Lebanese people that 
they are not getting anything out of this. As a matter of fact, 
everything that is flowing from this is negative for them, and 
it goes well beyond the refugee situation.
    We have condemned the violence from Sunni extremists, as 
well as from Shia extremists. So Lebanon is paying a heavy 
price, and the Lebanese people deserve to stop being forced to 
pay that price.
    Senator Kaine. In your testimony and in my opening 
comments, I talked a lot about the Syria effect on Lebanon, 
which was a main subject of virtually every conversation we 
had.
    I want to ask a question about one other significant 
dynamic, the U.S. discussions with the P5+1 nations with Iran 
over their nuclear program and the prospect that a resolution 
of that particular challenge and some rapprochement between 
Iran and the United States or Iran and other nations, including 
Saudi Arabia, could have within Lebanon. Could a potential 
rapprochement with appropriate skepticism about whether we 
would get there between Iran and the West and Saudi Arabia open 
the door to greater political stability in Lebanon, or would 
there be a converse concern that an emboldened Iran freed from 
some of the sanctions might further exacerbate tensions in the 
country?
    Mr. Silverman. Thank you, Mr. Chairman.
    I think if you talk to Lebanese people, a lot of Lebanese 
people would tell you that they would like to believe--
genuinely like to believe--that if we are able to reach a 
nuclear deal--the P5+1 is able to reach a nuclear deal with 
Iran--that it will have a positive effect, not the negative 
effect. I hope that is not the case. But most people like to 
think that there is a possibility here.
    Iran's regional actions are obviously a threat. We have 
condemned them. They are a state sponsor of terrorism, and they 
continue, obviously, to be a major supporter of the Assad 
regime, among many other aspects of sponsoring terrorism. But 
this is not part of the P5+1 talks. They are very much focused 
on the nuclear issue.
    I hope that what you say is true and that it will induce 
Iran to adopt a more responsible behavior in the region. When 
it came to the Geneva conference and the issue came up over 
Iran coming, potentially attending, could Iran potentially be a 
part of a solution? Theoretically, yes; but we were asking it 
to do what everybody else that attended the Geneva conference 
was being asked to do, which was to accept the Geneva 
communique and the purpose of the Geneva talks which Iran chose 
not to do. And so Iran exempted itself--excepted itself from 
that process.
    So hopefully it will have that more--if we are able--and 
the big ``if'' is we are able to reach an agreement. It will 
have that positive effect. Obviously, that is up to Iran, but I 
think in Lebanon, the Lebanese people want to see, obviously, a 
change in Iranian policy toward Lebanon, as well as to Syria.
    Senator Kaine. Let me ask a question or two about refugees 
before turning to Lebanese Armed Forces questions for General 
Plehn.
    One of the issues we picked up in dialogue with NGOs and 
the U.N. High Commissioner was sort of the changing definition 
of this refugee challenge. So the dimension from numbers is 
significant and sizable. If you assume that the refugee problem 
is a short-lived problem, you treat it one way, but once 
someone has lived in the country for a year and then 2 years 
and 3 years--I think there are about 330,000 young people in 
the Lebanese public school system, and there are nearly 75,000 
or 80,000 Syrian children of school age who are now living in 
communities. As the refugee challenge goes on for longer and 
longer, the strategies for dealing with refugee issues start to 
change. You know, instead of emergency aid of water bottles, 
what do you do to develop better water systems?
    Do you think our strategy and the strategy of the U.N. and 
other refugee-serving agencies is appropriately starting to 
look at sort of the long-term need or are we still focusing on 
the kind of emergency relief that might not really take into 
account the realistic nature of that refugee population?
    Mr. Silverman. Mr. Chairman, I think your diagnosis is 
exactly correct. As large and as bad as the figures are in 
terms of the total number of refugees that have come into 
Lebanon and to Jordan and elsewhere, in some sense the bigger 
number is how many years they might stay.
    Senator Kaine. Right.
    Mr. Silverman. If you look at the region, Lebanon has 
raised this very real challenge with us. I do not know if you 
met with King Abdullah of Jordan when he was here.
    Senator Kaine. Two weeks ago; yes.
    Mr. Silverman. But he has often spoken of this. It is this 
challenge of when might these people go home.
    This is not something that comes new to us or is a new 
consideration. And that is why we talk about assistance to the 
refugees. We always need to make sure that people understand we 
are talking about assistance to the refugees and to the 
communities that are hosting them because even in Jordan, 80 
percent of the refugees are not living in camps. And as you 
know, Lebanon has very restricted, informal tented settlements 
in a couple of places, but in general, no camps. There are 
1,600 communities in which the refugees live.
    So it is a huge strain on educational systems, and that has 
to be addressed. And some of our money is going to expanding 
access to education. When we say access for the refugees, we 
also mean access for the local communities because otherwise 
refugees are taking up that access. You have seen double 
sessions in school and things like that.
    Senator Kaine. And just again for the audience--most may 
follow this, but it is pretty important to note--because of the 
number of Syrian children in Lebanon, many Lebanese schools are 
going to split shifts, morning sessions with refugee children 
and afternoon sessions with local populations or vice versa, 
often having to teach in different languages in the morning and 
afternoon sessions. So again, thinking 330,000 children in the 
public schools nationally, but about 80,000 refugee children in 
this community, the magnitude of this challenge is very, very 
dramatic.
    Mr. Silverman. So beyond the education issue are particular 
issues of health and infrastructure, meaning water 
infrastructure, for example, which is hugely important in 
Lebanon and in Jordan as well. And so some of our money is 
going to the U.N. and other money is going to NGOs. And 
Secretary Kerry, when he attended the International Support 
Group in New York in September, brought with him $30 million 
that was particularly focused on aiding the host communities. 
So we are dealing with water, trying to enhance and increase 
water infrastructure to get to these communities. And it can be 
helping with housing to be honest, money that is going to 
communities when they add on to their houses, for example, to 
accommodate refugees.
    So absolutely, you are right to focus on these longer term 
infrastructural burdens because, as you mentioned earlier, you 
are getting a youth population. And as I think you heard when 
you were in Lebanon, a lot of kids just not being educated. 
Period. And that has enormous implications not just for Lebanon 
but throughout the region.
    Senator Kaine. I gather that the way you describe this 
challenge, the International Support Group that was convened is 
looking at this dynamic where, instead of emergency relief, as 
the conflict in Syria stretches longer, they need to possibly 
change the kinds of relief they provide to the refugee and host 
populations.
    Mr. Silverman. Yes, that is right. We do not need to wait 
for groups, either an international support group or any other 
institution. We need to do it. The individual countries need to 
do it ourselves. And that is why we are focused on that. Our 
money is already focusing on that. And when we talk about 
Lebanon with our allies, we are talking about these kind of 
long-term challenges that need to be addressed, not just 
getting the immediate needs of food or medicine.
    Senator Kaine. General Plehn, turning to the Lebanese Armed 
Forces, before I ask about the relationship with U.S. military, 
I would like your assessment on one sort of aspect of the 
Lebanese Armed Forces. You know, one of the clear challenges, 
as we met with civilian leadership, the complexity of forming a 
government in a population where there has been this tradition 
of very delicate power-sharing between Sunni, Shia, Maronite, 
Roman Catholic, different groups within the country. It is a 
little bit like Belgian politics where everything sort of has 
to be allocated not among language groups but among ethnic 
groups. And that, together with the complications of the Syrian 
civil war, was the reason it took so long to put together this 
governing coalition.
    Moving over into the Lebanese Armed Forces, how are they 
able to integrate these populations? The civil side has a hard 
time doing it, but within the Lebanese Armed Forces, are the 
Sunni, Shia, and Christian service men and women well 
integrated in units? And can that serve a leadership function 
in terms of modeling to the remainder of society that, look, 
this can be done?
    General Plehn. Mr. Chairman, that is both a great question 
and a great observation, and you have highlighted certainly the 
difficulty within Lebanon with the many different confessions 
that come together in that country. What I would tell you is 
what you know, that the Lebanese Armed Forces really is a model 
for how those different confessions are able to come together 
within that country, certainly rally behind the mission of 
being the sole, legitimate security provider for the country 
itself and then I think, as you noted, provide that model for 
the rest of the country for the future.
    Senator Kaine. Talk a little bit about how the Lebanese 
Armed Forces responds to these twin challenges, first of having 
this sizable and powerful militia in Hezbollah and, second, now 
that there is this spike in Sunni-Shia violence since Hezbollah 
has gone into Syria. These are two different kinds of 
challenges that the Lebanese Armed Forces have to deal with. 
Talk a little bit about their capacity in dealing with these 
two challenges, the Hezbollah relationship and the spike in 
Sunni-Shia violence in the last year or so.
    General Plehn. Yes, sir. If I may take the last first with 
the spike in Sunni-Shia violence. I think what we have seen is 
exactly what you would hope and expect out of any armed forces 
for a country, is that those individuals are willing to put 
themselves on the forefront of the fighting. And as I noted 
earlier in my testimony and as you noted as well, the Lebanese 
Armed Forces have paid the cost of that intervention to provide 
security for the people of Lebanon.
    You, yourself, noted that Lebanese Hezbollah is a well-
armed militia, something that just is not normal to us in 
America in terms of a construct for how we deal with armed 
force. Certainly from the United States military perspective, 
our engagement with the Lebanese Armed Forces to build that 
professional military force, to reinforce both to them and to 
the people of Lebanon that they are the sole, legitimate 
security provider for Lebanon is certainly that path that we 
want to go down.
    Mr. Silverman. Mr. Chairman, may I just jump on what Mike 
just said?
    Senator Kaine. Yes, please.
    Mr. Silverman. Which is, there is another component too 
with the diplomatic component, which is we have to work 
together with governments in the region and even in Europe to 
stop the flow of foreign fighters going to this conflict. And 
we have to stop the flow of financing to violent extremists. 
And that is a very important effort that is going on right now. 
We have seen some steps by some countries to constrict or 
restrict and to penalize--punish with harsh laws, harsh 
penalties--people who go over to fight, who are going over to 
Syria or anywhere else to fight. And that really needs to be an 
important part of our whole-of-government approach to this 
problem. And I think it will be a subject, for example, when 
President Obama goes to Saudi Arabia later. That will be 
because we are working with all of the governments of the 
region and in Europe as well to deal with this. We really need 
to stop at the source as well.
    Senator Kaine. If we hope to increase the support we 
provide to the Lebanese Armed Forces, how can we assure that 
any technological capacity or weapons systems or weaponry--that 
there are appropriate safeguards and accountability controls 
over U.S.-supplied security material so that they stay in the 
right hands and do not fall into the wrong hands in the middle 
of a very volatile security environment?
    General Plehn. Mr. Chairman, in Lebanon, much as we have in 
many other countries, we have an office of defense cooperation 
in Beirut. Their primary purpose truly is to ensure that we 
have the appropriate safeguards and that we are performing the 
appropriate end-use monitoring is what we call it when we 
provide foreign military sales, equipment to partner nations. 
So our U.S. personnel in the Office of Defense Cooperation in 
Beirut will do that enhanced end-use monitoring to ensure that 
that equipment is both accounted for and being used properly.
    Senator Kaine. I found it interesting, in the dialogue with 
the Lebanese Armed Forces, their take on the Saudi Arabian and 
French potential for receipt of Saudi Arabian assistance to 
purchase French military assets. They said they liked the U.S. 
equipment a lot better basically is what the Lebanese Armed 
Forces was saying.
    But I gather from your testimony, General, that you feel 
like the more partners, the better, the more assistance, the 
better. You do not find that Saudi Arabian provision of $3 
billion to purchase French assistance--you do not find that 
troubling or problematic. You view it as greater partners to 
help the armed forces is to be desired and not to be feared?
    General Plehn. Sir, I think Lebanon can use a lot of 
friends right now. They are in difficult straits, as you well 
know. I would tell you that we certainly are working with 
Lebanon and with the rest of our partners, as I mentioned in my 
testimony, to ensure that that $3 billion grant is 
complementary to other efforts and that it is used on the 
things that the Lebanese Armed Forces truly need the most. I 
would offer to you that there are infrastructure-type projects 
that would help support the Lebanese Armed Forces that would be 
as, if not more, valuable to them in many areas than specific 
pieces of equipment.
    Senator Kaine. Thank you for that answer.
    One more question about the economy, back to Mr. Silverman. 
You talked about the prospects for natural gas to be a boost 
for the Lebanese economy. It requires more than a caretaker 
government to make some of the decisions about accessing those 
oilfields, which I guess would largely be in the Mediterranean. 
But could you expand a little bit on what these natural gas 
reserves might offer Lebanon and how those could help the 
Lebanese economy?
    Mr. Silverman. We do not know exactly how large they are, 
but there is significant interest and they could be extensive. 
Obviously, Israel is on the other side of this, and their 
resources are extensive, what they have found so far, as you 
know. So I think the interest is there, and it really could be 
a great, great boon to the Lebanese economy. There is no 
question about it if it is handled the right way and if they 
get in and move forward because this is not a static market.
    I am not the expert, but the experts that work on this have 
explained to me and to the Lebanese that there are a finite 
number of investments. There is a finite amount of money that 
the international oil companies have to invest. And they will 
see a potentially profitable field, but they also need to have 
the certainty or the confidence that they can put in a major, 
major investment, not the investment to do an initial 
exploration or something, which may not be very much. But when 
you really get in and sign contracts and move forward with 
exploitation, that is an enormous investment. And meanwhile, 
other countries are attracting these companies, and Lebanon is 
behind because it cannot attract because it cannot release a 
tender.
    So I think it is hard to put a figure on how much it could 
contribute to the GDP of Lebanon, but I think everyone 
acknowledges that it could be quite significant if the 
structure is put together, the regulatory structure too, and 
the exploration moves forward.
    Senator Kaine. And is one of the issues with Lebanon--I 
think there are two sizable fields in the Mediterranean, one 
pretty much in what all would agree are Israeli waters and one 
that kind of straddles a border, depending on how you draw the 
water border, between Israel and Lebanon. I gather the 
exploitation of that field would probably not just require a 
Lebanese non-caretaker government to decide to move forward, 
but possibly also some cooperation with the Israeli Government 
about making sure that those borders are appropriately 
delineated.
    Mr. Silverman. I referred in my remarks to this maritime 
boundary line and, Senator, you are exactly correct. That is 
what we are talking about here. The companies, obviously, make 
this judgment themselves, but when I said they are looking for 
certainty and predictability, they do not want to enter a 
political dispute. They do not want to enter in a territory 
that will then turn out to be still subject to a dispute. And 
that is why we have been talking to both the Israelis and to 
the Lebanese trying to be helpful in reaching a solution to 
their maritime boundary line and what can be exploited. We 
think it can be done. We absolutely believe that there can be 
an arrangement worked out and that Lebanon can go forward if 
the decisions are made.
    Senator Kaine. I have about 5 hours more of questions for 
this panel, but I do want to get to the second panel. Before I 
say a few concluding words and introduce the panel, I did want 
to at least pass to Senator Risch.
    Senator Risch. Thank you. I will pass.
    Senator Kaine. Let me just say a word in conclusion. One of 
the most powerful aspects of this visit--and I have got a State 
Department witness and a DOD witness here today. But one of the 
most powerful aspects of the trip was going to the memorial to 
U.S. men and women from our State Department, from our 
military, who lost their lives in Lebanon, and the list of 
people is very, very long. I think Senator King and I were 
really struck looking at the memorial, the Marine barracks 
bombing, the Embassy bombing, the Embassy Annex bombing, and 
then a whole series of other instances, two, three, four, five, 
six, seven Americans at a time during that period in the early 
1980s, the late 1980s. It was a very powerful thing. It was a 
very visible indication not only of American sacrifice but of 
the kinds of challenges that that very resilient Lebanese 
population has been dealing with on a daily basis.
    But it also made Senator King and I really step back and 
realize the sacrifice that our military and our Foreign 
Service--sometimes we do not express the same appreciation to 
nonmilitary who are serving abroad as ambassadors with a small 
``A'' for us. That memorial makes very vivid the sacrifice of 
any Americans who serve abroad, whether in the military and 
other capacity. It is important that we acknowledge that. And I 
just wanted to acknowledge that as you finish.
    There may be additional questions from members of the panel 
that will be submitted in writing. But I appreciate you being 
here today and look forward to continuing to shed some light on 
the situation in Lebanon with your help. Thank you very much 
for coming.
    Let me now introduce our second panel. Our second panel 
will come up to the table with nametags ready.
    Dr. Paul Salem is vice president of the Middle East 
Institute leading an initiative on Arab transitions. Prior to 
joining the Middle East Institute, Dr. Salem was the founding 
director of the Carnegie Middle East Center in Beirut, Lebanon, 
between 2006 and 2013 where he built a regional think tank 
distinguished by the quality of policy research and high 
regional profile. From 1999 to 2006, Dr. Salem was the director 
of the Fares Foundation and in 1989 founded and directed the 
Lebanese Center for Policy Studies, Lebanon's leading public 
policy think tank. Dr. Salem writes regularly in the Arab and 
Western press and has been published in numerous journals and 
newspapers. Dr. Salem, we are glad to have you today.
    In addition, we have with us Mr. Aram Nerguizian, who is a 
senior fellow at the Center for Strategic and International 
Studies where he conducts research on strategic and military 
dynamics in the Middle East and north Africa. During his time 
at CSIS, Mr. Nerguizian has worked on Hezbollah and the 
Lebanese Armed Forces extensively. He is frequently consulted 
by governments and the private sector, appears regularly on 
television, and has authored a number of books and reports on 
the Middle East and regional security issues.
    I would like to ask Dr. Salem to begin with his opening 
comments, followed by Mr. Nerguizian. Your written comments are 
accepted for the record. If you could try to summarize in about 
5 minutes, and then we will move into a dialogue.
    Dr. Salem.

         STATEMENT OF DR. PAUL SALEM, VICE PRESIDENT, 
             MIDDLE EAST INSTITUTE, WASHINGTON, DC

    Dr. Salem. Senator Kaine, Ranking Member Risch, thank you 
very much for the honor of sharing my views with you on my 
native Lebanon.
    Lebanon is, indeed, at a crossroads both in time and space. 
What I mean by that, it has survived 3 years of the Syrian 
crisis. Can it survive a fourth and a fifth? The pressures in 
time are increasing at all levels. In space, it is at a 
crossroads in the sense that Lebanon is very much penetrated by 
regional and international influence, and Middle East is going 
through an intense period of restructuring not only in Syria 
but also as the United States sort of retreats slightly, the 
United States, Iran, the gulf countries and so on and Russia 
playing new games, Lebanon is very vulnerable to all of that. 
Lebanon has survived 3 years of the Syrian conflict, but for 
all of those 3 years has been close to the breaking point. 
Indeed, unless a resolution is achieved in the Syrian war, 
Lebanon's political and security institutions, its economy, and 
social fabric might, indeed, increasingly fall apart.
    Lebanon is the weakest link in Syria's environment. Any 
investment in Lebanon is, indeed, an investment in regional 
stability and, I would say, global security.
    The spillover from Syria is enormous. Lebanese politics has 
been aligned for, and against, the Assad regime for 9 years, 
and that has sort of defined political alliances in the country 
for a very long time. And that has created political paralysis, 
political tension in the country for the past 3 years.
    The refugee situation is well known, and the numbers really 
go into uncharted territory. I know of no other country that 
has received so many refugees in such a short period of time. 
The first panel said are we close to the breaking point. This 
is uncharted territory. No society has done what Lebanon is 
attempting to do.
    Now, on the other hand, Lebanon does have coping 
mechanisms. It is not a coincidence that it has survived for 3 
years. It is a country accustomed to crisis and has been 
through many internal and regional crises before. The political 
system, although weak and often dysfunctional, is also 
inclusive and is built on principles of accommodation and 
power-sharing and that is very important.
    The army, although severely challenged and viewed by some 
with some taint, remains a very important national and 
inclusive institution.
    And the living memory of Lebanon's own civil war that ended 
in 1990 deters most parties and most citizens from moving 
toward any major confrontation.
    As we know, a major step forward was taken 10 days ago with 
the formation of a national unity government. This is an 
extremely important step. It is the first step forward in 3 
years. For the past year, there have been attempts to form a 
government, but let us not forget that for 2 years before that, 
since January 2011, Lebanon was limping along with a lopsided 
government which did not include the March 14 coalition. So 
after 3 years, this is indeed an extremely important step.
    Certainly this new government deserves important support, 
endorsement, and cooperation. It needs to be followed right 
away with a Presidential election. Presidential elections 
require, yes, a two-thirds majority for a quorum. It requires a 
two-thirds majority in the first vote, but in the second vote, 
requires a simple majority. So it is not exactly as difficult 
as imagined. Extending the term of the President or changing 
the constitution--that in itself requires a two-thirds 
majority. So it is equally difficult, but you can elect a 
President with a simple majority after you get the first two-
thirds quorum. There are hopes that in the accommodation that 
happened in the last few weeks this might be the case.
    And I will indicate--we can come back to it later--that the 
change is not so much only internal bargaining and so on. There 
has been a change in the regional environment. The two main 
patrons of the two groups, Iran and Saudi Arabia--I think there 
has been a shift there certainly on the Saudi side. The fact 
that there has been a Geneva meeting--we can get back to that--
but there has been a shift in the region. That might help us 
move forward in Lebanon.
    Of course, we need to follow Presidential elections with 
parliamentary elections, as mentioned before.
    On extremist groups, it is important to start by saying 
that all the major parties, certainly Shia, Christian, Druze, 
are committed to power-sharing, are committed to stability, are 
committed to avoid internal warfare. There is no major movement 
toward internal conflict. There is no will for it. There is no 
plan for it.
    But there is a very high tension because of Hezbollah's 
direct engagement in the war in Syria, and this has led to some 
radicalization in the Sunni street in Lebanon and some 
homegrown groups, but it has also encouraged groups from Syria 
and others related to al-Qaeda to take the fight to Hezbollah 
territory inside Lebanon and that is what we have seen in the 
last few months. I think this will remain a serious security 
concern for Lebanon but is not about to bring the house down. 
Hezbollah is in a deep rut in terms of its engagement in 
Lebanon and Syria, and that will affect its long-term viability 
and the strategic environment between Hezbollah and Israel, its 
main and original enemy.
    The key goal, obviously, would be to end the crisis in 
Syria. The best way to help Lebanon is to do that, but that 
does not seem to be happening any time soon.
    For Lebanon, I would reiterate what many of my colleagues 
have said. Endorse and support the new government. Support the 
election of a new President and the holding of parliamentary 
elections. Continue to take the lead generously in donation to 
Lebanon and to the refugee community. Build on strong U.S.-
Lebanese military cooperation and relations, as well as 
encourage allies to do so as well. Work to maintain stability 
along the Lebanon-Israel border. We have seen just in the last 
24 hours an Israeli attack on the border area between Lebanon 
and Syria. The borders between Lebanon and Israel have been 
stable since 2006. It is important to keep that the case, and 
certainly the United States can be important in that area.
    Finally, I would also agree with Mr. Silverman that 
encouragement for Lebanon to move forward on the offshore oil/
gas issue is important. We can talk more about that in the Q&A. 
It is not so much that it would immediately get any revenues to 
the Lebanese Treasury. This might take a full decade, but 
moving forward in that area would give confidence to the 
Lebanese themselves, would make major international companies 
and states have a stake in Lebanon's stability, and might be a 
very important source of stability and confidence in Lebanon 
moving forward, even if the revenues will take many, many 
years, if at all, to move forward.
    Thank you.
    [The prepared statement of Dr. Salem follows:]

                    Prepared Statement of Paul Salem

    Senator Kaine, members of the committee, I am honoured to share 
with you my thoughts on the political and security situation in my 
native Lebanon, the impact of the ongoing war in Syria, and what 
implications there may be for U.S. policy.
    The precarious republic of Lebanon has survived 3 years of the 
Syrian conflict, but it has been teetering close to the breaking point. 
Unless a resolution or dramatic de-escalation is achieved in the Syrian 
war in the coming year, Lebanon's political and security institutions, 
its economy and its social fabric might begin to come apart.
                            syria spillover
    The number of registered Syrian refugees in Lebanon, a country of 
only 4 million people, is rapidly approaching the 1 million mark, with 
thousands more arriving every day. That is like the United States 
receiving an influx of 80 million refugees in 2 years. Sixty-five 
percent of these refugees are women and children. One in five of them 
are under the age of 4.
    Lebanon has kept its borders open, and the country's communities 
have welcomed these refugees in their villages, neighborhoods, and 
local facilities. But the burden has been heavy and the cost high. 
There are now as many Syrian children as Lebanese in a school system 
that was barely able to keep up with its precrisis obligations. The 
strain on the health, water, electricity, housing, and public service 
infrastructure has been enormous.
    The crisis has also impacted the economy, which has gone from 
healthy growth to contraction; and unemployment, especially in host 
communities, has climbed rapidly. Tensions between host and refugee 
populations in some areas are on the rise, and the strain has added to 
the political and sectarian tensions already present in the country.
                           coping mechanisms
    But Lebanon--a country not unaccustomed to crisis--also has 
remarkable coping mechanisms. The political system, although weak and 
often dysfunctional, is nonetheless inclusive, and is built on 
principles of accommodation and power-sharing. The army, although 
severely challenged during the present crisis, remains a national and 
inclusive institution. And the living memory of Lebanon's own 16-year 
civil war that only ended two decades ago, presents a strong antidote 
to any rush toward major internal conflict.
    The main political coalitions in Lebanon--known as the March 14 and 
March 8 coalitions--have been aligned for and against the Assad regime 
for the past 10 years. And while their differences increased during the 
Syrian crisis, leading to political tension and institutional 
paralysis, neither side was interested in pursuing significant internal 
conflict. For the first 2 years of the crisis, Lebanon had a lop-sided 
government in which the March 14 coalition was not represented; but 
even that government resigned a year ago, and the country limped along 
with only a caretaker government. Parliamentary elections scheduled 
last year, also were not held.
    A major step forward was achieved 10 days ago, when the country's 
polarized political factions agreed to form an inclusive national unity 
government. This is an important step in easing sectarian and factional 
tensions, consolidating precarious national stability, and helping the 
country ride out the oncoming waves of instability emanating from 
Syria. This new government should receive rapid and strong 
international support and endorsement.
    To further reinforce Lebanon's political institutions, this step 
needs to be followed by the election of a new President for the 
republic to a fresh 6-year term, as the current President's term ends 
in May. And this should be followed in the fall by overdue 
parliamentary elections.
    A revival of Lebanon's democratic and inclusive political 
institutions is essential to giving Lebanese confidence in their own 
future, and to give Lebanon's friends and investors, confidence as well 
that Lebanon can pull through this latest crisis. Lebanon's precarious 
republic has survived external and internal wars before; with strong 
external support, it might survive this latest crisis as well.
                            extremist groups
    While the country's main parties have joined a national unity 
government, polarization among the communities continues, and risks to 
security mount. Lebanon's outgoing government had declared an official 
policy of neutrality and disengagement toward the Syrian conflict, but 
Hezbollah fully engaged in the fight alongside the Assad regime. And 
many in the Sunni community sympathised with the Syrian rebels, 
offering various forms of aid and assistance.
    Although the country remained generally calm, intermittent 
eruptions of violence have racked the northern city of Tripoli, the 
southern town of Sidon, and several border towns such as Ersal in the 
eastern part of the country. A string of car-bombs targeting Shiite as 
well as Sunni neighborhoods have repeatedly threatened to push tensions 
to the boiling point.
    In the face of a heavily armed and militant Hezbollah, the main 
Sunni parties and politicians have generally chosen accommodation not 
confrontation. This has left some of the Sunni street dissatisfied, and 
created space for the rise of more radical groups that want to 
challenge Hezbollah directly. Some of these are home-grown, such as the 
movement of Sheikh Ahmad al-Assir, but others are part of wider 
regional networks in Syria and elsewhere, such as the Abdullah Azzam 
Brigades that claimed responsibility for the latest bombings, Jubhat 
al-Nusra and other al-Qaeda linked groups.
    The leader of the mainstream Sunni Future Movement has recently 
called on his community to renounce such radical jihadist groups, and 
the state's security apparatus is struggling to better secure the 
border and track down members of these cells and networks, but these 
security breaches are likely to continue intermittently. They will 
shake Lebanon's stability, but are unlikely to bring the whole house 
down.
               what can and should the united states do?
Address the Cause
    The key goal, of course, is to go to the source, and try to end or 
dramatically de-escalate the raging conflict in Syria. The tepid 
international response over the past 3 years to the Assad regime's 
massacring of its own people, and the feeble support to the Free Syrian 
Army and the nonrebel groups, has convinced the Assad regime and his 
allies that they can prevail. It has also created an opportunity for 
the rise of more radical opposition groups. Without serious pressure, 
this conflict will be resolved neither on the battlefield nor on the 
negotiating table; it is likely to go on for a decade or even two, with 
unimaginable human suffering and incalculable consequences for the 
region and for global security.
    The Assad regime has proved willing to fight to the last Syrian and 
would rather govern part of a devastated Syria than share power with 
others in a united Syria. And yet, when faced with a massive military 
threat, as that made by the U.S. last August, it has buckled and made 
major concessions. A regime that rules by force responds only to 
superior force. As long as that is not forthcoming in terms of serious 
military support to the Free Syrian Army or external military action, 
they will offer no major concessions.
    The latest pledge from the Obama administration to increase support 
to the opposition is welcome, but is likely to be below the level that 
would seriously worry the Assad regime or alter the balance of power. 
And it is way below what Assad's allies are pouring into Syria in terms 
of men, money, and materiel. Unless the power calculations are changed 
dramatically, Assad is not going anywhere in the foreseeable future.
De-Escalation
    If the Syrian conflict is not going to end soon, and a real 
transition is not currently viable, the alternative interim goal should 
be to at least de-escalate the conflict and focus on achieving cease-
fires, getting aid to the millions of Syrians that need it, stabilizing 
as many parts of the country as possible, and limiting the zones of 
active warfare. When Lebanon fell apart in 1975, it took 15 years to 
patch it back together again. But during those 15 years, there were 
periods of intense civil war, but many years and zones of relative calm 
in which citizens could rebuild their lives and businesses, send their 
kids to school, and go about their daily life while the political order 
that had fallen apart awaited a new configuration.
    The U.N. Security Council Resolution passed last week ordering 
warring parties in Syria to stop blocking the delivery of humanitarian 
aid is an important but long overdue step in putting people first. If 
no one is going to win this war anytime soon, the world must focus on 
de-escalating the fighting, delivering urgent aid, creating zones of 
stability and normalcy, and saving Syrian civilians.
    For Lebanon a resolution or de-escalation of the Syrian conflict 
would mean that no new refugees would enter the country, and the 
million that are already there would begin to make their way back to 
Syria. And it would also allow a diminution of political and security 
tensions that keep the country on tenterhooks.
Support for Lebanon
    But if the Syrian conflict will be neither resolved nor de-
escalated, then Lebanon is in for a very dangerous ride in 2014 and 
2015 and will need all the help it can get from the United States and 
other friends.
    The United States and Lebanon have enjoyed many decades of warm 
relations reinforced by shared values and a large Lebanese American 
community. And the U.S. has been a strong supporter of the Lebanese 
Armed Forces and the biggest contributor to Lebanon's refugee relief 
needs. Among the ways that the U.S. could build on this support and 
help Lebanon survive the continuing storm are the following:

--Endorse and support the new national unity government.
--Encourage the Lebanese parties to move forward in electing a new 
    President of the republic and in holding overdue parliamentary 
    elections.
--Include Lebanon in high level visits of U.S. officials to the region.
--Continue to take the lead in donating and getting other nations to 
    donate to the urgent and growing needs of the massive refugee 
    population, with an immediate focus on the upcoming International 
    Support Group for Lebanon meeting on March 5 in Paris.
--Build on long-standing U.S.-Lebanese military cooperation and work 
    with other allies to bolster the capacities of the Lebanese Army 
    and internal security forces.
--Continue to work with the Lebanese security forces to boost their 
    counterterrorism capacities.
--Encourage and provide assistance to the new Lebanese Government to 
    move forward with the delayed offshore gas bidding round; this 
    would provide much-needed economic confidence, and help build a 
    more promising economic future for the country's rising 
    generations.
                               in closing
    The Syrian war has devastated Syria and destabilized the entire 
region. Lebanon is the weakest link in the chain of countries around 
Syria. It has been the most generous in welcoming war-ravaged refugees 
and paid the highest cost in terms of its own stability and security. 
It deserves all the help you can offer. And any investment in Lebanon's 
stability, is an investment in regional stability, and in global 
security.
    I thank you for your attention and for the opportunity to address 
your esteemed Committee.

    Senator Kaine. Thank you, Dr. Salem.
    Mr. Nerguizian.

  STATEMENT OF ARAM NERGUIZIAN, SENIOR FELLOW, BURKE CHAIR IN 
   STRATEGY, CENTER FOR STRATEGIC AND INTERNATIONAL STUDIES, 
                         WASHINGTON, DC

    Mr. Nerguizian. Chairman Kaine, Ranking Member Risch, and 
distinguished members of the subcommittee, thank you for the 
opportunity to speak to you today about Lebanon and the 
pressures it faces in the wake of the Syria crisis and broader 
instability across the Levant.
    I have submitted a far longer written analysis that both 
explains and contextualizes what I am about to stay in depth, 
using open-source reporting and research conducted in field 
work in Lebanon. I fully understand how busy members and their 
staff are, but I hope that some of you will still be able to 
look to it for a level of detail that I cannot go into in this 
short statement, and I request that it be put into the official 
record.
    Senator Kaine. Without objection.
    Mr. Nerguizian. Allow me to summarize some of the key 
points.
    Syria's civil war and the Lebanon-Syria insecurity nexus 
now complicate and inform every aspect of sectarian and 
factional competition in Lebanon in ways that neither the 
Lebanese nor their regional and international allies seem to 
have fully accounted for. The conflict in Syria also defines 
how both the United States and Iran deal with their respective 
sets of interests, partners, and allies in Lebanon and the 
broader region.
    Competing Lebanese factions have adopted diametrically 
opposing views on Syria, Iran, and Saudi Arabia. Anecdotal data 
from polling and field work all show deep divisions along 
Sunni-Shiite lines. Lebanon's Shia continue to view the Assad 
regime, Iran, and Hezbollah favorably while maintaining 
unfavorable views of Saudi Arabia. Meanwhile, the country's 
Sunnis continue to maintain the opposite set of views relative 
to the country's Shia.
    The pressure that Lebanon's Christians feel as a result of 
local and regional Sunni-Shia tension are also growing. Whether 
it is on Assad, Iran, Hezbollah, or Saudi Arabia, a significant 
portion of Lebanon's Christians remain divided about whether 
any of these regional and local actors can be viewed favorably 
or whether they could be trusted to make positive and 
stabilizing use of their influence in Lebanon.
    Hezbollah's decision to commit to offensive military 
operations inside Syria in concert with Assad's forces is a 
preemptive war of choice in Syria that reflects its own narrow 
set of overlapping priorities in the country. These include the 
primacy of preserving the resistance axis with Iran, 
Hezbollah's sense that it can neither appease increasingly 
militant Lebanese Sunni political forces, nor reverse deepening 
regional Sunni-Shia tensions, and that Shia communal fears as a 
regional minority group increasingly inform a need to create 
strategic depth in Syria.
    In 2014, Hezbollah's military priorities in Syria continue 
to center on its combat role east of the Bekaa Valley with a 
focus on strategically significant terrain such as the town of 
Qusayr and the 
Al-Qalamoun mountain range. Both remain critical to supply 
lines, and whoever controls them can shape the flow of aid, 
weapons, and personnel either to or from Syria. Hezbollah may 
have accurately calculated that moderate and urban Sunni 
factions and political forces would not, or could not, escalate 
in Syria, or by resorting to attacks against the militant group 
or the Lebanese Shia community. However, the rural Sunnis in 
the north and the Bekaa have always been a separate 
demographic, and Hezbollah actions in Syria may also 
dramatically accelerate major shifts currently underway within 
the Sunni community.
    In 2014, Lebanon's mainly Sunni ruling north continues to 
maintain the highest overall and extreme poverty rates in the 
country, at levels in excess of 52 percent, or more than twice 
the national average. Dire socioeconomics and feelings of being 
underrepresented by traditional Sunni leadership have left 
northern Sunnis increasingly vulnerable to the recruitment 
efforts of militant and jihadi groups, including the Abdullah 
Azzam Brigades, Jabhat 
al-Nusra, and the Islamic State of Iraq and al-Sham.
    Meanwhile, these shifts within Lebanon's Sunni community 
are taking place both alongside and because of acute 
demographic, socioeconomic, and security pressures from the 
influx of mainly Sunni displaced Syrians, now numbering more 
than 900,000 in Lebanon and centered in parts of the country 
with high poverty rates, poor education, health care, and other 
infrastructure.
    While the scale of pressures on Lebanon and its people 
continues to grow, there are still a broad range of actors and 
institutions that seek to play a stabilizing role, and no 
institution has contributed more to relative stability than the 
Lebanese Armed Forces, or the LAF. The principal national 
security partner of the United States in Lebanon, the LAF has 
expanded from a force of 59,000 in 2010 to a force of some 
65,500 in 2014, largely in an effort to stand up border 
protection forces, including the first and second border 
regiments, to deal with the pressures from Syria. The 
undermanning of conventional units has also proven to be a 
necessary evil to ensure as broad a national deployment as 
possible, totaling some 24,000 to 30,000 troops in the field.
    As a result of the conflict, the LAF maintains three core 
national security priorities. These include creating a real-
world security and border regime along the Lebanese-Syrian 
border, managing the risks of on-again/off-again violence and 
volatility along the U.N. Blue Line between Israel and Lebanon, 
and lastly conducting what the LAF calls high intensity 
internal stability and counterterrorism operations.
    In many ways, the LAF's growing counterterrorism 
capabilities and the central role of LAF military intelligence 
and counterintelligence efforts increasingly define the U.S.-
Lebanon military-to-military relationship. The LAF's growing 
ability to act on external intelligence, focus on dismantling 
groups like the Abdullah Azzam Brigades and similar militant 
and jihadi organizations, and the military's interdiction of 
IED, vehicle IED, and suicide attacks are key sources of even 
limited stability in a region in turmoil.
    The LAF has worked hard to bring on line two border 
regiments to manage growing instability. This has included 
building up fixed Sanger-style observation posts that will be 
equipped with day and night electro-optical surveillance 
systems and anti-RPG netting and protection, along with other 
defensive countermeasures. The LAF hopes to build at least an 
additional eight fixed observation posts in 2014.
    What the LAF needs now at the national level to push 
through its national security priorities is strong government 
leadership and political top cover. While Prime Minister Tammam 
Salam managed to form a Cabinet that includes both March 14 and 
March 8 coalitions and that enjoys broad international 
legitimacy, it still remains unclear at the end of February 
2014 whether the new Cabinet would be capable of seizing on the 
LAF's momentum along the border.
    Lastly, at the international level, the LAF and the 
Lebanese need countries like the United States and other donors 
and partners to support the military's development efforts, 
especially the LAF's capabilities development plan, the 
International Support Group for Lebanon, and the upcoming Rome 
conference to support the LAF.
    I could go into far greater detail on all of these 
pressures, but I will leave them for the Q&A period. I thank 
you for your time and this opportunity.

[Editor's note.--The prepared statement submitted by Mr. 
Nerguizian was too voluminous to include in the printed hearing 
but will be maintained in the permanent record of the 
committee. It can also be found at: http://csis.org/files/
publication/140225_ 
Nerguizian_Lebanon_testimony.pdf.]

    Senator Kaine. Thank you, Mr. Nerguizian.
    We will just start a dialogue and these will be questions 
that I will pose to either or both of you as we explore in more 
detail some of your testimony.
    First, I would like each of your assessments about sort of 
what will likely happen in the next steps in the political 
process from the ministerial statement to the Presidential 
election, whether you think it is more likely that there will 
be Presidential candidates in the selection of a new individual 
for President or whether it might prove more probable that we 
would see an extension of President Suleiman's term. I do not 
want you to have to pin down with precision your percentage 
estimates of the chances, but I think it will be helpful for us 
as we think about our relationship, to get the sense of you as 
experts as to what you think the next steps in the political 
process are likely to--what are the results likely to be.
    Dr. Salem. Well, as I said, the formation of this 
government does reflect the change in some of the regional 
powers in their positioning and they have encouraged their 
allies to work together to form this government. I think the 
ministerial statement certainly takes a bit of time. There is a 
lot going on. There is a lot being negotiated, but I think they 
will come out with a ministerial statement.
    I think this regionally supported mood to create some 
stability in Lebanon to keep Lebanon politically away from the 
conflict that is going on Syria even though Hezbollah mainly is 
involved there--I think this will continue in the immediate 
future. And I hope that that will impact a very heated, sort of 
behind-closed-doors discussion that started about the next 
President. It is not clear exactly who that will be but I think 
there is current momentum toward actually electing a next 
President. There is more leniency from both sides to accept a 
candidate even if that candidate is not their favorite 
candidate. None of the major players, maybe except one of the 
Christian parties, is sort of playing a spoiler role. 
Otherwise, for the time being, most of the players are in this 
collective game.
    I would say it is more likely than not that there will be a 
new President elected, you know, 51-49. Hard to say.
    The second most likely would simply be that the post will 
fall vacant for a while or a long time.
    The third possibility would be the extension of the term of 
the current President. That is very difficult, very unlikely. 
That requires a two-thirds consensus. That does not exist.
    So either we elect a new President or we fall into a period 
of a vacancy.
    The key factor that created this momentum and the key 
factor that could ruin this momentum is the regional 
environment. I think we happen to be at a moment, even though 
Geneva did not succeed, it did happen, and we have moved from 
sides expecting that the other side is going to fall within 2 
months to a realization that this is going on for a long time. 
There has been sort of a moment of a diplomacy. How long that 
will last in the region--weeks, months--if in that sort of 
honeymoon period we can go ahead and elect a President, we will 
be lucky. If we miss that, I think we will go back to what we 
had before, which is paralysis. We could not have elections for 
Parliament. We could not form a government, and we could not 
elect a President.
    Senator Kaine. Mr. Nerguizian.
    Mr. Nerguizian. Mr. Chairman, most of the factions in 
Lebanon have been competing, whether it is domestically or in 
Syria, with an assumption that somehow the crisis would be 
resolved within a relatively fixed or short period. I think it 
has dawned on every faction that matters that Syria's civil war 
is in every way going to be a decade of long-term pressures and 
dynamics that they, whether they like it or not, are going to 
have to cooperate with each other on in terms of the next 
steps. So you have right now a Cabinet. Beyond the formation of 
this Cabinet and its ministerial statement, you have a number 
of other institutions that are deeply dependent on this. For 
example, in the LAF, you have an organization that is known as 
the Military Council, which has traditionally played the role 
of a buffer dealing with a lot of the sectarian pressures. It 
remains largely vacant. You have the longer term issue of who 
will be the next LAF commander. And all of these events, 
filling key leadership posts, dealing with the Presidency, and 
then dealing with leadership of the LAF in the long term--they 
all require a set of factors that are like delicate sequencing.
    But, frankly, Mr. Chairman, I think it is difficult to sit 
and think realistically about who the people are that could 
fill in these posts. The Presidency, just as Cabinet formation 
has shown us, is deeply precarious and uncertain. None of us 
can predict how this will play out. You have only a finite set 
of players that are being considered anecdotally.
    But the bigger issue, I think--and I highlight this in my 
statement--is that you have a Christian community in Lebanon 
and frankly in the region that, for better or for worse, feels 
that it needs a strong President or at least a President that 
enjoys broad communal support. Now, will we get to that in the 
scenarios that Dr. Salem described, or will this map out in a 
way that is far more unstable? It is difficult to predict, and 
I frankly am careful about making those sorts of assumptions.
    Senator Kaine. I asked the previous panel the question of 
whether in its internal politics in Lebanon, Hezbollah has been 
affected or seen any erosion of its political support because 
of the decision to go all in in the Syrian civil war. And I 
would like to hear each of you sort of address--the role of 
Hezbollah in Syria is one thing, but how has it affected their 
place in Lebanese society and sort of their political profile 
at the current time?
    Dr. Salem. Well, initially it was not a very popular move 
amongst Hezbollah's own supporters. Initially when the uprising 
in Syria seemed like part of the early Arab Spring, pro-
democracy, the Assad regime was firing on people, there was not 
a clear understanding of why should Hezbollah get involved. 
There was not yet the appearance on the other side of these 
radical al-Qaeda-related groups. But Hezbollah's popularity in 
the community is so overwhelming on so many levels. There is no 
real contest there. But even if there was some reluctance, 
there was no real questioning of the decision, some complaining 
but no real questioning.
    I would say that the community certainly is maybe drained, 
is very concerned, but I think they have been convinced to some 
degree that, indeed, there is a major Sunni radical threat to 
them. Now, whether that threat was partly created by what the 
Assad regime itself did and you get the enemy that you would 
desire, but indeed this threat has become real. It has become 
real to all Lebanese. It certainly has become real to the 
Shiite community in Lebanon. So I would say they are paying a 
very high price. They are not happy about it, but there is not 
any major questioning right now of the decision.
    I think the major impact on Hezbollah is long-term, that 
this is effectively a force which was designed, A, to push back 
at Israeli occupation. Secondly, it was designed as a deterrent 
for Iran against any potential Israeli or American strike on 
Iran. That is its function. Now, since Syria left Lebanon, they 
have had to be the policeman in Lebanon. So they have turned 
into internal politics. Now they have to be the policeman and 
the army in Syria. They are so overreaching, so overextended. 
In the long term, this is something that drains them, drains 
the community, makes them long-term very vulnerable, similar to 
what the PLO experienced between 1975 and eventually 1982.
    What I sort of worry about most is that the border region 
between Lebanon and Syria and Israel, which has been stable for 
the last 8 years, in the long term will likely not be because 
the powers are shifting. And Hezbollah is not in a good 
position. It is fighting on many fronts. It was not designed to 
do so. The community is too small to sustain it.
    Senator Kaine. Mr. Nerguizian.
    Mr. Nerguizian. Mr. Chairman, Hezbollah always knew that 
taking this level of action in Syria would cost it support 
within the broader Lebanese Sunni community, to say nothing of 
broader Arab popular support. That has essentially come to 
pass. They no longer enjoy that broad range of backing at the 
regional level. But that is the cost, as Hezbollah sees it, of 
creating that strategic depth that it thinks it needs.
    The other side of this is that on net balance, Hezbollah's 
role has brought some degree of predictability, perhaps not in 
the way that many would like, along the Lebanese-Syrian 
frontier. If one were to ask 4 or 5 years ago would Hezbollah 
allow or sanction or facilitate the establishment of better 
border relations, more demarcation, a robust security regime 
along the border, one would be hesitant to say, yes. But the 
dynamics are such now that you have at least an opportunity to 
do good, to do good in terms of the Lebanese and institutions 
like the LAF focusing on building up these institutions and 
structures along the border.
    You also have all the patterns that Dr. Salem described in 
terms of what the long-term radicalization and instability 
effects are. In every way that matters, radicalization within 
the Sunni community in Lebanon and the inflow of fighters 
presents as much of a threat to mainstream Sunnis in the 
country as it does to mainstream Shiites. And that has bought 
Hezbollah some breathing room.
    But in the long term, I think there is no doubt. You have a 
transformation that is taking place that is part of internal 
Shiite dynamics but also part of a broader regional pattern 
that includes Saudi Arabia, Iran, and the United States. Right 
now, it is not clear, if there is a resolution of the Syria 
conflict, what will be Hezbollah's future, but what is broadly 
clear to me is that Iran is looking for a posteriori 
arrangement. And by that, what I mean is if there is going to 
be some kind of a new regional order that ties in negotiations 
on the nuclear file and that ties in on the U.N. Blue Line and 
Hezbollah, it is something that they would like to see occur as 
a result of an arrangement or a framework, not before. So you 
are going to continue to see continued support by Iran.
    And within the Shiite community, I have to agree there is 
no real basis to say that there is anything more than marginal 
dissent within the community. Hezbollah has been very 
effective, and frankly, their opponents have helped as well to 
create a narrative of self-defense and countering terrorism, 
which has become in many ways a national reality.
    Senator Kaine. Thank you.
    Dr. Salem. Mr. Chairman?
    Senator Kaine. Yes, please.
    Dr. Salem. I just want to add something that is sort of 
relevant about the refugee situation and security, both 
Hezbollah and national security.
    You have a million, maybe up to a million and a half, 
refugees from Syria. The vast majority are Sunnis. Lebanon, in 
the sense by what is happening Syria by Hezbollah's actions, is 
effectively turning into a Sunni majority country, and yet 
Hezbollah is fighting in Syria and Lebanon and putting itself 
in a very precarious situation. The country has absorbed a 
quarter of the number of its population in refugees, and yet, 
``nothing has happened.'' And one marvels at that.
    The metaphor I sort of use is it is like you are pouring 
fuel into the basement. Nothing has happened yet, but it takes 
one match for that to explode. The experience of Lebanon or 
other communities with refugees, whether it was the 
Palestinians--it took several years. But if and when that 
refugee population becomes mobilized and militarized, as some 
groups in Syria and the region are trying to do, once that 
happens, then that fuel ignites and neither Hezbollah nor 
Lebanon can control it.
    For us that means and maybe for U.S. policy, yes, it has 
been survivable so far but, A, we need to stem the flow and, B, 
we need to find ways to get those people starting to go back 
either in a resolved Syria or safe havens, you know, get the 
flow reversed. Lebanon--I mean, one marvels that it has 
survived so far, but this could detonate at any point in the 
near future and it requires urgent attention to be reversed, 
not just treated symptomatically.
    Senator Kaine. Dr. Salem, your comments really echo Mr. 
Silverman on the earlier panel when he said we are just sort of 
in uncharted territory. Twenty-five percent of the population 
equivalent being as refugees. So far, no massive match strike, 
but we just do not know when that point would come in terms of 
that breaking point that you testified to.
    In terms of the magnitude of the refugee challenge, moving 
to that, Mr. Nerguizian made the point of everyone probably 
thought that this civil war would be something that would be 
resolved sooner, and everybody is kind of waking up to a 
reality that it is not going to be a quick resolution. It is 
going to take significant time.
    Do you think Lebanese civil society, the NGO community, the 
International Support Group--are they appropriately now 
changing their thinking and planning to treat this not as an 
emergency situation, but really to start to look at it as a 
long-term problem, in which case the way you manage it is going 
to be different than kind of a traditional emergency relief 
operation? For either of you.
    Mr. Nerguizian. Mr. Chairman, one of the side effects of 
regularly traveling to Lebanon--and I traveled in 2013 about 
six times--is that you get to see the gradual evolution of all 
the patterns you just described. You no longer have any of the 
optimism that you can have short-term efforts with a quick 
payoff. All the realities now, whether it is the NGO community, 
the humanitarian aid structures that are operating in Lebanon, 
or emerging structures like the International Support Group, 
are all going to have to exercise a great degree of strategic 
patience in all of this.
    This is not a civil war that is just born out of protests 
over a short-term period as a result of droughts. It is the 
basic collapse of a state structure that has been kind of 
limping along since as far back as the Second World War. You 
are looking at a transformational moment. And whether it is the 
ISG or local forces, I am seeing a gradual, slow, and difficult 
shift to this.
    But it has always been a key challenge in terms of 
resourcing. You have all of the impacts, not unlike those we 
have seen here in the United States tied to national resourcing 
and aid that are now coming to bear. You do not have the kinds 
of funds that are required readily available. And the countries 
that do have them are mainly in the gulf and have interests 
that are not necessarily tied to finding a quick and 
stabilizing effect on Lebanon and may be too closely linked to 
their own strategic imperatives in terms of regional 
competition.
    But that is where I think U.S. and allied influence is 
critical. It plays a key role in shaping the choices of some of 
these countries that do also depend on the United States--for 
example, in the case of the gulf security architecture. The 
United States can play a positive role in shaping some of this 
because I think that there is an acceptance, at least within 
the U.S. interagency, not to say at the broader national level 
and the policy community, that this is a decade of instability.
    Senator Kaine. Dr. Salem.
    Dr. Salem. Well, I mean, I would emphasize--I mean, I agree 
with all of that, and one must prepare for that. But I also 
definitely think that the world and the region cannot afford 
for this to go on for a decade. The regime in Syria has proven 
willing to fight to the last Syrian, to destroy all of Syria. 
It is willing to maintain power over part of a devastated Syria 
rather than share power with others over a united Syria. It is 
a regime that only understands force. When force was threatened 
against it, within days it made a major concession.
    So from a policy perspective, it is such a dire crisis that 
it needs a much more robust interdiction. And I know this is a 
debate that has been going on in other chambers and so on. But 
looking at Lebanon, Jordan, Turkey, Iraq, the whole region, 
Iranian gulf tensions, tensions among U.S. allies in the gulf 
themselves, which have complicated the situation in Syria and 
in Iraq and elsewhere, yes, the United States wants to 
disengage, but the United States is still the biggest player in 
the region. Both allies and opponents look to it to figure out 
their own policy. This conflict--one cannot afford to leave it 
go on and on.
    Now, what that means, what difficult decisions must be 
taken I do not know. I for one know that Lebanon cannot survive 
2 more years, 3 more years of this. As we said, we are in 
uncharted territory. Although we have been in similar 
situations before with large refugee populations, it meant the 
destruction of Lebanon and 16 years of civil war in Lebanon. So 
we cannot at all be complacent. We can be thankful that we 
survived these 3 years.
    But the lesson I take away is, yes, maybe prepare for the 
worst, but what needs to be done is again redoubled efforts to 
end this conflict. And I think in 2013 and 2014, there was a 
major initiative from the United States on the chemical weapons 
thing. It got immediate results. There was a great effort from 
Secretary Kerry which got at least some progress on the 
diplomatic front. This is not completely hopeless, but it 
requires more heavy lifting. And it needs to end. It cannot go 
on for years and years.
    Senator Kaine. I very much share that view. While we are 
disappointed, obviously, with the path of the Geneva 
discussions in Syria, there is no substitute for those 
discussions, and even if the opportunity or the hope is just a 
flicker, we have got to do what we can to keep that ember 
alive.
    It is the case the United States is the largest provider of 
humanitarian support for Syrian refugees outside the country. 
We are working on dismantling one of largest chemical weapons 
stockpiles in the world. That has been a significant diplomatic 
project. And while there have been aspects of the progress of 
that destruction that we are not happy with, we are, 
nevertheless, pursuing it and going forward, and we will untill 
its completion.
    The challenge about the delivery of humanitarian aid is a 
significant one right now, but we were at least gratified that 
Russia dropped its veto posture in the Security Council over 
the delivery of humanitarian aid within Syria. If we could do 
that in a more aggressive way, that might stanch the flow of 
additional refugees out. It might. But the test of that 
Security Council resolution is obviously going to be pretty 
apparent, pretty quickly, to see whether actually we are able 
to do that delivery of aid or not. Much more heavy lifting has 
to be done. The engagement is there. The results have not been 
what we want but that does not mean that we need to back off.
    I asked the previous panel--and, Mr. Nerguizian, I think 
you addressed this briefly in your testimony. Talk to us about 
the Lebanese Armed Forces in this inclusion aspect. To a first-
time visitor, on the political side this delicate balance 
between the March 8/March 14 and others, the Sunni-Shia, 
Christian, the way this is balanced is very delicate. And when 
you cannot find that delicate balance, you end up with a 
caretaker Prime Minister. You end up with a government that 
cannot form. As we had brief interactions in this visit with 
the Lebanese Armed Forces, it seemed like it was less a group 
here of Sunnis, a group here of Shias, a group here of 
Christians, but a more integrated and inclusive armed forces. 
But that was from a brief visit. And I would be curious as to 
both of your sense on, is the Lebanese Armed Forces inclusive 
in that way, and is that inclusion within an armed forces of 
60,000-plus people--does that offer lessons that can be helpful 
lessons more broadly in Lebanese civil society?
    Mr. Nerguizian. Well, Mr. Chairman, it is first critical to 
point out that the LAF reflects the socioeconomics and 
demographics of the time. I do not want to get into too much 
detail because I could easily write a book on the issue.
    But if you were to look at the LAF in 1965, you would see 
an overwhelming number of Shiites because the LAF then, as now, 
was a vehicle for socioeconomic advancement. It was a chance 
for communities or demographics to uplift themselves.
    When you fast forward to 2014, what you see is a pattern 
where the overwhelming majority of the LAF in terms of manpower 
is now Sunni. And when I say ``overwhelming,'' I mean 42 
percent. This reflects the reality of a force that is 
recruiting heavily from the north and heavily from Aakkar 
because these are provinces that frankly need the income and 
need the structure. You have a pension plan with benefits and 
the promise that eventually your children might not have to 
deal with either military service, or move on to other strata 
in the economy.
    But beyond this, which does exist, you do have to bear in 
mind the officer corps, unlike the demographics of the broader 
force, is very heavily regulated in terms of which sect is 
represented and how. You have broadly a 50-50 split in terms of 
the officer corps of some 3,500 personnel. You do not have any 
quotas within the broader force. And this trickles up all the 
way to the top in terms of deputy chiefs of staff, chief of 
staff, the army commander, and so on.
    And I think what does give this force a positive esprit de 
corps, to use the analogy, as opposed to one that is divisive 
is that over the history of the LAF going back to 1943, you 
have had an effort to incubate an idea, an idea that this is 
not a nonsectarian Lebanon or a nonsectarian LAF, but rather 
that this is a cross-sectarian country, and this is an 
institution that has to represent those interests.
    Beyond that, you have a nucleus of officers, many of which 
are now at the command level, who were trained in 1980, 1981, 
and 1982. This is in many ways the vintage generation of LAF 
officers and they now are at their prime. They are cross-
sectarian. They come from all the communities, and they 
genuinely want to do good. And if they are to advance 
professionally and to move on in their careers and play a role 
in the next 2 or 3 years, that is favorable not just for 
Lebanon. It is favorable for regional stability. If that 
opportunity is missed, you are looking at the next generational 
gap, somewhere between 10 and 15 years within which you have to 
wait for the next crop of officers to mature and play a role. 
And these demographics are delicate and difficult and dense. I 
am happy to go into greater detail after the testimony.
    Senator Kaine. Yes, that is helpful.
    Dr. Salem.
    Dr. Salem. Yes, I would agree with that. I mean, indeed, in 
a sense everybody's cousin is in the army. Everybody is serving 
the army as a family, and that is extremely important for 
national identity and people's general respect for the army. 
Now, there have been incidents here and there where there have 
been remarks about this thing or that thing, but it is one of 
the major institutions which reinforces Lebanese identity and 
attachment to the state.
    It is also important to note, though, that this army, being 
a multisectarian or cross-sectarian army, reflects the very 
society it is part of. It cannot be used as a blunt instrument 
internally against any community. Many people ask why does it 
not fight Hezbollah or fight--you know. It cannot engage 
directly in any internal conflict. It can maintain peace. It 
can create stability. It can protect borders. It plays a very 
important role in reinforcing basic political understandings 
and political accommodations. So it has it strengths. It also 
has its limitations. It has done reasonably well in this 
period.
    But the Lebanese political system also, for all of its 
faults and dysfunctions, is a fairly ingenious and inclusive 
one and makes sure that all the communities feel they have a 
stake, that they are not threatened by the state or any 
decisions taken in that state. There might be lessons there for 
Syria of 2025 or even Iraq, which is having a very difficult 
time managing a multicommunal reality.
    Senator Kaine. So I am going to ask you to make a general 
choice. For future U.S. military assistance to the Lebanese 
Armed Forces, what is more important? Training assistance or 
equipment and weaponry?
    Mr. Nerguizian. Mr. Chairman, the net effect of U.S. 
training has been to elevate the special forces to being true 
special forces by regional standards. They are not just units 
in name alone.
    What you have now, though, is an urgent need to stand up 
the rest of the force. The core 3,700 SOF personnel, special 
forces personnel, continue to benefit from this training and 
not just from the United States But you also have 11 mechanized 
brigades and 5 intervention regiments that, frankly, are going 
to be at the forefront of what is going to be an even more 
difficult and challenging period for the LAF. You have a force 
that is also gradually swinging south from the northern border 
with Syria down past the Bekaa frontier, and it will 
eventually, through the deployment of the second border 
regiment, encircle parts of Lebanon where you have communities 
that, frankly, are not quite sure what the intentions of the 
LAF are.
    Now, in parallel to their efforts to manage this--and the 
LAF does want to essentially have a soft glove approach of 
partnership and working in partnership with communities like 
the one in Arsal, and that is a key point.
    I think the United States has a key role to play in 
standing up the third and fourth border regiments. This is not 
to say that we can pick equipment over training. Frankly, one 
is nothing without the other, as you know.
    Senator Kaine. Right.
    Mr. Nerguizian. But right now, one has to always revert 
back and look at what the CDP, the capabilities development 
plan, says. The overarching tenets there are not just about 
acquisition and systems. The LAF has learned a lot about that. 
It is far more focused on building an LAF 2025 dealing with all 
of the pressures Dr. Salem and myself described. So I think 
while we have to prioritize some aspects of training, it is 
always going to be a case-by-case analysis in terms of looking 
whether or not to prioritize that over land systems, naval 
systems, or other combat mechanisms.
    Senator Kaine. Dr. Salem.
    Dr. Salem. Aram is the expert on this. So I defer to him.
    Senator Kaine. I just report to you the opinion of the U.S. 
military leadership in Lebanon about the professionalism of the 
special forces is just as you suggest, Mr. Nerguizian. They 
were highly complimentary of the professionalism of the special 
forces. As you mentioned, it is not special forces in name 
only. It is special forces that they have merited by their 
training and their performance.
    And I was struck in meeting with Lebanon Armed Forces 
leadership how many of them talked about their training either 
in Lebanon with United States military forces or here in the 
United States. Some of the training that we do of foreign 
military leaders here in the United States or in-country are so 
cost-effective compared to other things that we do. I am on the 
Budget Committee too, and we are wrestling with all these 
budgetary issues.
    After we were in Lebanon, we went to Egypt and I had a 
lengthy meeting with General el-Sisi. We have a lot of 
challenges right now in that relationship because of some of 
the suspensions of aid that we have put in place after the 
events of June and July 2013. But over all of those challenges 
that we have, the year that General 
el-Sisi spent at the National War College in 2006 in Carlisle, 
PA, gives him a real understanding of the United States and a 
real affection for that military-to-military relationship. And 
in a period where there are some disagreements and challenges, 
having a background of ``but we trained together, I know these 
people and they know me, we got a problem, but we ought to be 
able to work for it,'' that year of training or the training 
that we provide to leaders in the LAF--I think the value of it 
is so much greater than the incremental cost of training one 
more person at the War College or doing a little bit more 
training in Lebanon. So I am a strong supporter of this kind of 
training going forward.
    Let me ask you this. How about the question about the 
effect of a rapprochement with appropriate skepticism, some 
increasing rapprochement with Iran? The interim joint plan of 
agreement around the nuclear negotiation then has led to a 
larger discussion about trying to find a diplomatic resolution 
of this issue of Iran's nuclear weapons program. It is focused 
on their nuclear weapons program. It is not focused on other 
issues. But in human experience, we understand that finding an 
agreement on one aspect makes it easier potentially to find an 
agreement on another. If there was some rapprochement between 
the West and Iran or maybe between Saudi Arabia and Iran, would 
the likely effect of that on the internal political dynamic in 
Lebanon be positive or would it be hard to predict what that 
effect would be?
    Dr. Salem. Well, if I may, I mean, there has been a 
perceived rapprochement or at least dialogue between the United 
States and Iran, as there has been between the United States 
and Syria over the chemical weapons deal. And many in the 
region, particularly the Gulf States who 2 years ago thought 
that the Assad regime's days were numbered, that the United 
States and Western position was clear, and also thought that 
the United States and others had a very firm position 
isolating, containing, or even combating Iran--now they wake up 
to a very different world in which Assad is sort of a partner 
in the long-term chemical weapons deal where he can drag his 
feet pretty much for a very long time. Iran is in negotiations, 
which might take a very long time and which certainly at least 
indicate that the United States is coexisting with Iran and 
with the Assad regime for the current future.
    Now, what did that create in terms of dynamics? I think it 
created several. First of all, it created panic in some 
countries in the region, in the gulf, and some degree Turkey. 
For a while, that caused them to escalate and want to go their 
own way. But I think in the last few months, I think we have 
seen a more sober reaction that, well, this is the new reality. 
You know, this is going to take some time. Expectation that 
Assad is going to fall tomorrow is not real. The United States 
is not about to do it and is not as tough against Iran as it 
was. And that is what I referred to that we are living through 
now, a moment particularly from Saudi Arabia, to some degree 
from Turkey and the Emirates and Kuwait, a sense of movement a 
bit toward accommodation, some stabilization for now in this 
particular phase.
    But I think what is missing from this entire picture is 
that the United States is negotiating with Iran over the 
nuclear file, but from the Iranian perspective and from the 
states in the region, Iran is maintaining and indeed extending 
its hegemony in Iraq and in Syria and in Lebanon. And the two 
ships are sort of linked. The more they talk with the United 
States, the more they have the free hand, they feel, either in 
the Assad regime bombing civilians or Iran supporting whether 
it is Maliki, Assad, Hezbollah, and so on. And that creates 
more conflict and more tension.
    Now this, obviously, is all complicated and, as you said, 
requires heavy lifting. But the region is sort of in a conflict 
system and the United States is only dealing with parts of it 
and often creating repose somewhere and tension somewhere else.
    What is certainly missing is the United States engaging 
Iran with the states of the region to talk about things beyond 
the nuclear issue, which is Iran's projection of power into 
Iraq, Syria, and Lebanon and doing so in a very flagrant way 
that breaks all norms of international relations and so on. If 
the Middle East is to see any kind of stability, that cannot 
continue. And unfortunately, that is not part of the Iranian-
United States discussions. So I think if it remains at that 
level, indeed it could be destabilizing.
    Senator Kaine. One sentiment I picked up on in my travels 
in the region that it was actually very helpful to kind of hear 
this expression was the anxiety in the region not about the 
failure of the United States-Iran negotiation over the nuclear 
program, but there is an anxiety about its success. If there 
was success, would the United States say, okay, our work is 
done here? We have reached a deal on the nuclear program and we 
do not need to worry about these other issues of projection of 
Iranian power in the region and how that could destabilize 
regimes. There seems to be some significant concern that the 
United States would feel good about a deal on the nuclear 
program and then potentially say we do not need to worry about 
the other issues when, for many of the nations in the region, 
they are equally or more concerned about the projection of 
power and the destabilizing effects of Iranian policy, as they 
are about the nuclear program. So it was helpful to hear some 
of those dynamics when we were there. And that sounds like one 
of your cautionary warnings to us.
    Mr. Nerguizian.
    Mr. Nerguizian. Mr. Chairman, the three issues that frankly 
cannot be disassociated from each other are how the gulf and 
Iran are competing in the Levant, the P5+1 talks you described, 
but also I think the core issue that countries in the gulf are 
fundamentally misinterpreting or getting the wrong message 
about what, if anything, is the Rebalance to Asia. The 
interpretation in the gulf is that the United States is 
abandoning the gulf security architecture. And frankly, every 
meeting that we have conducted in the region reinforces this 
view. I think it is incumbent on the administration and frankly 
the broader diplomatic community to just make it clear. There 
is no pivot to Asia. You have an acceptance and an 
understanding by key NATO allies that Iran's conventional and 
asymmetric forces are squarely focused on the gulf, and that 
drives a great deal of this whether it is competing in Iraq or 
competing in Syria.
    But in all of this, I think again key countries have 
underestimated just how severe the scales are in terms of what 
Syria is doing. You have a new generation of fighters returning 
home to countries in the gulf, returning to Europe. You have 
all of the patterns of the Arab uprising in terms of broad 
socioeconomics, labor markets, which we did not discuss in 
detail but that drive a lot of this. And I think even countries 
like Iran and Saudi Arabia that look at what is happening in 
Syria as zero sum, in terms of who wins or loses, are slowly 
coming around to a view that I think the United States has 
slowly moved to, which is that you need a pragmatic response to 
a broader trend. I agree with Dr. Salem. There need to be 
short-term solutions, but this is a long pattern. The arc of 
history will be long in the region in terms of what the end 
state will look like. You need metrics of stability. And if 
linking what is happening in Syria and as a result in Lebanon 
to P5+1, in concert with a successful strategic communications 
effort from the gulf, produces more stability, then so be it.
    Senator Kaine. Dr. Salem, I have one last question for you. 
You indicated in your testimony--you talked a little bit about 
the economic issues that could be positive in Lebanon if there 
is a pursuit of natural gas development. And you said I could 
say a word more about that if you were interested. I actually 
am sort of interested in your expertise on these economic 
issues. What do you see as sort of the opportunities that these 
gas reserves provide for the Lebanese economy and the 
likelihood that those opportunities will be accessed and taken 
advantage of in the near or medium term?
    Dr. Salem. Yes, I have worked a lot on this and met with 
the people and companies that are involved. This is a very 
interesting and somewhat complicated situation.
    The reserves--of course, they are not proven. One has to 
drill and so on. But from even the estimates of many of the 
companies or their expectations, there are very, very serious, 
particularly the gas reserves. They are a bit deep. So they are 
expensive to get at. Much will depend on at that time what are 
the market outlets and what is the money calculations behind 
it.
    But I see it really in two stages. Stage one is going ahead 
with the bidding to which many of the major oil companies of 
the West and the East have applied to bid, and the bid round 
was supposed to happen last year because the government still 
needed to issue a few decrees. When it resigned, it was a 
caretaker government and could not go forward. The first stage 
is going ahead with the bidding round, and for the first 4 to 5 
to 6 years, there will be no revenue. You know, maybe within 5-
6 years, you begin to drill. You begin to get some energy, but 
to turn that into money, it might be a 7-10 years window.
    But what is important about phase one, if you have major 
oil players from the United States and Russia and Europe and 
China engaged in this sector in the eastern Mediterranean, 
alongside Israel and Cyprus, which relates to then Turkey and 
the EU and all of that, it might create for Lebanon an 
investment in its stability and its long-term viability because 
of the importance of energy, similar to how the gulf sort of 
gets its stability and security. The gulf countries are a 
strange--you know, tribes and this, but they survive because 
they have important resources. Other parts of the world 
sometimes have that as well. That is very important for 
Lebanon's geostrategic environment if the East and West agree 
that this must be a peaceful zone because there are important 
resources here.
    Now, actually moving forward on what is the economic value 
of this, the first thing is to figure out how to get it to 
market. The market is effectively Europe. The original approach 
was or the plan was certainly to take it overland to Turkey 
which would mean through Syria. As long as the war there is 
raging, you cannot do that, but that is the most cost-effective 
way. And I would indicate that part of the war for Syria has to 
do with who is going to control the future of eastern 
Mediterranean energy.
    The other way to do it, which Israel is exploring, is 
whether to do it through LNG in Cyprus and put it on ships or 
possibly from Cyprus an undersea pipeline to Turkey and then 
Turkey gets it to market. So it gets into a lot of geopolitics 
and relations.
    If Lebanon can get this to market and sell it, that would 
be--well, let me say two things. The energy itself, the gas--if 
it is extracted, the first use of it is directly into the 
Lebanese electricity production, which would take the biggest 
bill from Lebanon's public finances off the records as what we 
pay to create electricity. That would be the first and most 
direct easing for the Lebanese public finances.
    The second part is if we begin to sell on the markets. The 
money, according to the law that was passed, will be put into a 
sovereign wealth fund. The law for the sovereign wealth fund 
and the details of how that money will be spent has not yet 
been negotiated, but the principle of creating a sovereign 
wealth fund, which is the proper approach in principle, has 
been made law and a future parliament will have to pass a law 
as to what the wealth fund will use the money for. Will it be 
to draw down debt? Will be capital investment? Or will it be 
just insurance for the future? The Norwegians are working very 
closely with the Lebanese. They have the best model. There are 
other models as well.
    So it is geostrategic stability first and within a decade, 
if they move ahead, beginning to move ahead on some economic 
benefits which would be very significant.
    During that whole period, there would be a benefit that 
companies both upstream, downstream will begin setting up in 
Lebanon to prepare for this sector, and that in itself creates 
economic activity in Lebanon which creates jobs and growth, all 
of this overshadowed by the war in Syria. So it is pretty tough 
going. But still, there is serious interest in the 
international community, even with the war going on, for the 
bids to go forward.
    Most of the gas and so on is not in the border area. There 
are fields. It is not exactly clear because one has to drill to 
be sure. It is likely that one of the main Israeli fields maybe 
dips up a bit into southern--the very disputed zone. But it is 
really not a major issue in the sense that there is 90 percent 
of drilling that can take place that has nothing to do with the 
Israeli border issues. So we can go on for 20-30 years without 
even touching that issue. If people want to avoid it, it is 
definitely avoidable. The challenges are to get ahead with the 
bidding round, to begin the process, to find ways to get it 
eventually to market and to have some security and stability 
over this decade.
    Senator Kaine. I want to thank you both for being here and 
for your testimony. One of the challenges of being a junior 
Senator is I am usually at hearings where I get to ask 
questions for 5 minutes. The ability to have two panels and 
have 2 hours where I can ask all the questions I want is a 
great satisfaction to the policy glutton in me.
    Your expertise is very much appreciated. This is a very 
important relationship. And I frankly worry that in the story 
of Syria, the effect in Jordan has been a little better known, 
as it should be. It should be well known. The effect in Turkey 
has been a little better known, as it should be. It is 
important that the effect in Lebanon is very well known here in 
Congress and in this country. You have helped with that today. 
I look forward to continuing to work together with you.
    And with that, the hearing is adjourned.
    [Whereupon, at 5:37 p.m., the hearing was adjourned.]

                                  [all]
</pre></body></html>
